Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





NIH OVERSIGHT OF EXTRAMURAL
     RESEARCH INVENTIONS




                            SERVICZ$
                    #                  “o&
              #-&
                                         7

         fw                                  JUNE GIBBS BROWN
         2                                   Inspector    General
         ;
         %
           %
           ++
                        $
                                                   MAY 1994
             %’,f~~
             >                                   OEI-03-91-O0930
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Sefices’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS
The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office under the direction of Joy Quill, Regional Inspector General and Robert A.
Vito, Deputy Regional Inspector General. Project staff included:


REGION                                                      HEADQUARTERS


Linda M. Ragone, Project Leader                             Mary Beth Clarke




For additionalcopies of this repo~ please contact the PhiladelphiaRegional (M&      at
1-800-531-9562.
Department of Health and Human Services
        OFFICE OF

   INSPECTOR GENERAL





                                                        I
 NIH OVERSIGHT OF EXTRAMURAL

      RESEARCH INVENTIONS





            J&          - @$w
            +                   JUNE GIBBS BROWN
           $
           4
           <
           ?
           %     -Jf
             ‘+$+,
                ‘+d~~
                 >
                                Inspector     General

                                        MAY 1994
                                     (3EI-03-91-00930
                 EXECUTIVE                            SUMMARY


PURPOSE

To review the National Institutes of Health’s (NIH) oversight of grantees’ compliance
with the requirements of the Patent and Trademark Amendments of 1980 (commonly
known as the Bayh-Dole Act).

BACKGROUND

The National Institutes of Health’s (NIH) mission is the pursuit of science to improve
human health. One way NIH accomplishes its mission is by supporting extramural
research   in universities,   medical schools, hospitals,   and research   institutions.    over   70
percent of the NIH’s 1993$10 billion budget supports extramural research.

Prior to 1980, there was no uniform Federal policy for dealing with inventions
developed through extramural research. In 1980, Congress passed the Patent and
Trademark Amendments Act, commonly kI-IOWII       as the Bayh-Dole Act (P.L. 96-517).
The purpose of the Act was to allow small businesses and nonprofit organizations to
acquire title to inventions produced with Federal research funding.

In 1984, the Bayh-Dole Act was amended by the Trademark Clarification Act (P.L.

98-620), which provided even greater flexibility to certain grantees in licensing

inventions. With the passage of the Trademark Clarification Act, the Department of

Commerce was assigned responsibility for developing regulations.


The Commerce regulations are applicable to all Federal agencies. The Department of

Health and Human Services has chosen not to promulgate its own regulations.

Instead, the Commerce regulations are used to implement the Bayh-Dole

requirements at NIH. The Division of Extramural Invention Reports within NIH is

responsible for oversight of these regulations.


We reviewed pertinent legislation and regulations regarding federally-supported
inventions. We interviewed officials at the Department   of Commerce and NIH and
reviewed their extramural invention policies and procedures.

FINDINGS

 i% NIH has the primaq role in ensuring that i~ granteer comply with f&ml                  regulations
for inventions.

While the NIH and the Department of commerce are both granted certain areas of
review by the Commerce regulations, both agree that NIH has the primary
responsibility for tracking grantee compliance with the regulations.



                                                  i
 l%e NIH has limited i~ oversight of grantees by not requiring dkmwntation   for some
federal requirement

The NIH requires documentation for only certain Bayh-Dole requirements. Some of
this documentation is required by regulation, some is allowed but not required, and
some is not mentioned in the regulation at all.

2% NIH lhckx a systematic process for ensuring that grantees submit ail required
inventl”oninformation.

The NIH does not follow up systematically with grantees to ensure that required
documents are submitted. In addition, it has no system for determining whether
documents are submitted timely.

The NIH does not ji.dly utilize its bwention database to monitor grantee compliance.

The NIH is not fully utilizing its database’s potential for monitoring or reporting out
information. Information from the database could be used periodically to inform
grantees that certain requirements have not yet been met. More complete
information on commercialization could be recorded in the database and then
reported to NIH management and the public. This outcome information would
illustrate one benefit of public research funding.

RECOMMENDATIONS

This report describes how NIH carries out its oversight role in ensuring grantee
compliance with the Federal regulations implementing the Bayh-Dole Act. We realize
that in designing its role, NIH has had to balance several priorities. These priorities
include encouraging the commercialization of NIH-supported inventions, minimizing
the administrative burden of grantee monitoring, and ensuring that the rights of the
government and public are upheld. We also recognize the dedication of the Division
of Extramural Invention Reports staff for handling a large volume of work with limited
resources.

The following recommendations address fundamental problems with NIH’s existing
oversight role. These recommendations are consistent with the findings of a review
done by the Office of Audit Services (OAS) within the Office of Inspector General.
The OAS found that one NIH grantee had not fully complied with Bayh-Dole
reporting requirements and that NIH did not have effective procedures to detect this
non-compliance.

Accordingly, we recommend     the following.

o	     The NIX-Ishould reexamine its current oversight role to determine if
       improvements couId be made in the monitoring of grantee compliance with
       Bayh-Dole requirements. While we believe the NIH monitoring role should not


                                               ii
       be so constricting as to hinder the overriding purpose of commercialization that
       is central to the intent of the Bayh-Dole Act, we also believe that NIH needs to
       have an effective monitoring role to preserve the additional Bayh-Dole Act
       objectives of protecting the public investment in research and promoting small
       businesses and U.S. manufacturing. We do not believe that grantee self-
       monitoring would ensure that all of these objectives are met.

       We believe the NIH needs to increase its monitoring of grantee compliance
       especially in the areas of royalties, and small business and U.S. manufacturing
       preferences. However, we recognize the need to consider the views of the full
       spectrum of affected parties, including the research community, when
       implementing an improved monitoring process.

       To create more effective monitoring procedures, the NIH may determine the
       need to recommend that the Department of Health and Human Sewices issue
       its own regulations for implementing Bayh-Dole requirements. This may clari~
       NIH and grantee responsibilities under the Bayh-Dole Act.

o	     The NIH should (1) add more detailed licensing and utilization information to
       its invention database and (2) use the database to track grantees for timely
       compliance. The data could be aggregated periodically and used to gauge
       progress in commercializing NIH-supported    inventions.

AGENCY COMMENTS

The NIH commented on the draft report and the full text of their comments appears
in Appendix E. The NIH concurred with our recommendations.           The NIH indicated it
had made a major step in evaluating its current oversight role of Bayh-Dole through
the sponsoring of a two-day public forum by the Task Force on the Commercialization
of Intellectual Property Rights from Extramural Research. However, while we agree
with the finding of the forum that NIH monitoring should not overburden research
institutions to the point of hindering the goal of technology transfer and
commercialization, we are not convinced that self-monitoring by grantee institutions
will ensure that the objectives of J3ayh-Dole will be met. We continue to believe that
NIH must exercise a strong monitoring role in order to ensure that an equitable
balance is struck between commercializing federally-supported inventions and
protecting the public’s investment in research.




                                            ...
                                            111
                      TABLE                     OF CONTENTS

                                                                                                                         PAGE

EXECUTIVE          SUMMARY             . . . . . . . . . . . . . . . . . . ........................i


INTRODUCTION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”.”.          ..........1


FINDINGS


    � NIHRole       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..6


    “Grantee     Oversight     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...........9


    “Ensuring     Compliance        . . . . . . . . . . . . . . . . . . . . . . . . . ...”.        . . . . . . . . . . . . . 12


    .Useof      Invention Database.           . . . . . . . . . . . . . . . . . . . . . . . ....”..........                 14


RECOMMENDATIONS                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDICES


A     Regulations Implementing the Bayh-Dole Act . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Flow of Invention Reporting Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


C: NIHSample          Forms for Licensing and Invention Reporting                               . . . . . . . . . . . . . . c-1


D: Sample Database Record..                   . . . . . . . . . . . . . . . . . . . . . . . . . ..”.”.......               D-1


E     Agency Comments           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”..”.......                 E-1

                         INTRODUCTION


PURPOSE

Toreview the National Institutes of Health’s(NIH) oversight ofgrantees’ compliance
with the requirements of the Patent and Trademark Amendments of 1980 (commonly
known as the Bayh-Dole Act).

BACKGROUND

tiamural   Reseamh

The National Institutes of Health’s (NIH) mission is the pursuit of science to improve
human health. One way NIH accomplishes its mission is by supporting extramural
research in universities, medical schools, hospitals, and research institutions. @er 70
percent of the NIH’s 1993$10 billion budget supports extramural research.

Funds are awarded to extramural organizations mainly through research grants and
research and development contracts. 1 In FY 1991, almost 93 percent of awards were
to domestic nonprofit institutions, with universities receiving the majority of these
funds.2

Patent L.4@dation

Prior to 1980, there was no uniform Federal policy for dealing with grantees’
inventions. Each agency developed its own guidelines for allocating patent rights to
grantee inventions. Concerns that conflicting patent policies for federally-supported
research were impeding commercialization led to the passage of new patent
legislation.

In 1980, Congress passed the Patent and Trademark Amendments Act, commonly
known as the Bayh-Dole Act (P.L. 96-517). The law allowed small businesses and
nonprofit organizations to acquire title to their subject inventions in any country in



    lNIH Data Book 1992, Table 18, p. 25, September      1, 1992.

   2NIH Data Book 1992, Table 21, p. 31, September       1, 1992.

     3The term “subject invention” means any invention that the grantee conceived or
first actually reduced to practice in the performance of work under a funding
agreement. A funding agreement includes grants, contracts, or cooperative
agreements. For the purpose of this report, we will use grantee to mean any
institution which has a funding agreement with NIH that would fall under these
regulations (35 USC 201).


                                            1
which they file a patent application within a reasonable time. However, under certain
exceptional circumstances, the Federal Government may retain title to subject
inventions.

The goal of the Bayh-Dole Act is comprised of seven objectives.               These objectives
are to:

        o	      use the patent system to promote the utilization of inventions arising
                from federally supported research or development;

        o	      encourage maximum participation of small business firms in federally
                supported research and development efforts;

        o	      promote collaboration between commercial concerns and nonprofit
                organizations, including universities;

        o	      ensure that inventions made by nonprofit organizations and small
                business firms are used in a manner to promote free competition and
                enterprise;

        o	      promote the commercialization and public availability of inventions
                made in the United States by United States industry and labor;

        o	      ensure that the Government obtains sufficient rights in federally
                supported inventions to meet the needs of the Government and protect
                the public against nonuse or unreasonable use of inventions; and

        o       minimize the costs of administering policies in this area.


In 1984, the Bayh-Dole Act was amended by the Trademark Clarification Act (P.L.
98-620), which provided even greater flexibility to certain grantees in licensing
inventions.

Incorporation of the Bayh-Dole and Trademark Ckijication           Acfi into US. Codes

Although under most circumstances patent rights are allocated            to grantees, the
government is allowed certain minimum          rights in any federally-funded       (35
                                                                                 invention
U.S.C. 202). Grantees must disclose inventions, elect to retain title, and file patent
applications for each subject invention within a reasonable time frame. If the grantee
does not perform these functions in a reasonable time frame, the government may
receive title to the invention.

When the grantee retains rights to the invention, Federal agencies retain a non-
exclusive, non-transferable, irrevocable, paid-up license to practice the subject
invention.   Federal   agencies   also have the right to require   periodic    reporting   on the



                                                 2

utilization or efforts at obtaining utilization of the invention. In addition, the grantee
is required to include a statement in the patent specifying that the invention was made
with Government support and that the Government has certain rights in the invention.

If a grantee chooses to license a subject invention, certain requirements app]y. Al]
grantees must make an effort to license to firms that will manufacture the invention
substantially in the United States. Nonprofit organizations must make a reasonable
effort to give preference to small businesses when licensing. Finally, royalties accrued
to nonprofit organizations must be shared with the inventor and the remainder must
be used to support scientific research or education.

If certain requirements are not met, granting agencies may employ “march-in rights”.
March-in rights allow the granting agency to require grantees or licensees to grant a
nonexclusive, partially exclusive, or exclusive license to responsible applicants if the
agency determines that the grantee or licensee is not fulfilling certain requirements.
The agency may employ this march-in right if (1) the grantee has not taken effective
steps to commercialize the invention, (2) action is necessa~ to alleviate health or
safety needs, (3) action is necessary to meet requirements for public use, or (4) action
is necessary because the requirement for manufacturing the invention in the United
States is not being fulfilled.

Federal Regulations

The Office of Federal Procurement Policy was initially charged with issuing regulations

for implementing the Bayh-Dole Act. With the passage of the Trademark

Clarification Act, the Department of Commerce was assigned responsibility for

developing regulations.


The Commerce regulations (37 CFR 401) include a standard patent clause that is to

be incorporated in all funding agreements. The clause outlines the rights and

responsibilities of Federal agencies and grantees regarding subject inventions. The

Commerce regulations are applicable to all Federal agencies. The Department of

Health and Human Services has chosen not to promulgate its own regulations.

Instead, the Commerce regulations are used to implement the Bayh-Dole

requirements at NIH. See Appendix A for the Commerce regulations.


%   NIH Administration of the Bayh-Dole Act

The Division of Extramural Invention Reports (DEIR) is responsible for overseeing
grantee compliance with Federal regulations concerning invention reporting.  Since
1991, DEIR has been under the direction of the Office of Policy for Extramural
Research Administration (OPERA).

The DEIR is composed of two staff members. The Director and one additional
support person handle the invention information that comes from the thousands of
funding agreements awarded each year.


                                             3
Concerns About Commercialization of Federally-Supported Inventions

Recent congressional hearings have questioned the appropriateness of collaborative
agreements between research institutions receiving Federal support and private firms.
The research environment has changed since the passage of Bayh-Dole more than a
decade ago. Research institutions areincreasingly turning toprivate funding as
Federal research dollars grow scarce. Along with the growing number of
collaborative agreements comes a growing concern that the public investment in
research is not being adequately protected.

The Bayh-Dole Act has been successful in encouraging the commercialization of
federally-supported inventions and collaboration between commercial concerns and
universities. Between 1980 and 1990, the number of patent applications for NIH-
supported inventions increased nearly 300 percent.      The commercialization
agreements and licenses to produce these inventions have provided universities and
other research institutions with millions of dollars in royalties.4

Although NIH, universities, and private firms point to the success of Bayh-Dole, others
believe the increased collaboration between researchers and industry can lead to
conflicts of interest and a lack of accountability to the public. 5 In response to these
concerns, NIH recently surveyed approximately 100 universities to review their
invention information and research-support agreements.G The NIH has also asked its
internal Task Force on the Commercialization of Intellectual Property Rights from
NIH-Supported Extramural Research to evaluate the issues surrounding
commercialization.



    4Bernadine Healy, M.D., Director of the National Institutes of Health, Statement
before the House Committee on Small Business, Subcommittee on Regulation,
Business Opportunities, and Energy, June 17, 1993.

    5Ralph Nader, Statement before the House Committee on Small Business,
Subcommittee on Regulation, Business Opportunities, and Energy, March 11, 1993

    Representative Ron Wyden, Opening statement before the House Committee on
Small Business, Subcommittee on Regulation, Business Opportunities, and Energy,
March 11, 1993.

     Sheldon Krimsky, Ph.D., Statement before the House Committee on Small
Business, Subcommittee on Regulation, Business Opportunities, and Energy, June 17,
1993.

     ‘Research-support agreements are agreements between outside firms and research
institutions, where in exchange for research dollars, the institution provides the outside
firm the first right to license or commercialize inventions that arise during the
supported research.


                                             4
METHODOLOGY


We reviewed pertinent patent legislation (pL 96-51’7, PL 98-620), including legislative
histories, to determine the purposes and objectives of the laws. We examined current
regulations covering the assignment and management of patent rights for federally-
funded inventions promulgated by the Departments of Commerce and Health and
Human Services.

We interviewed both NIH and Commerce officials and asked them to define their
oversight responsibilities. We also interviewed officials at the National Science
Foundation to see how an agency with grantees similar to those funded by NIH
viewed their oversight responsibilities.

We reviewed all pertinent procedures and policy statements that NIH has developed
to oversee grantees’ compliance with Bayh-Dole requirements.    We also reviewed
information provided to grantees to inform them of their rights and responsibilities
under Bayh-Dole. To learn what information is collected and stored by the Inventions
Office, we examined the computer database of grantee invention information.

We limited our review to what procedures were in place at NIH to ensure grantee
compliance. We did not evaluate whether grantees were complying with regulations.

We conducted our inspection in accordance with the Quali~ Standards     for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            5

                                  FINDINGS


THE NIH HAS THE PRIMARY ROLE IN ENSURING THAT ITS GRANTEES
COMPLY WITH FEDERAL REGULATIONS FOR INVENTIONS.


While the National Institutes of Health (NIH) and the Department of Commerce are
both granted certain areas of review by the regulations promulgated by Commerce,
both agree that NIH has the primary responsibility for tracking its grantees’
compliance with the regulations. The table be’low illustrates which agency has a
responsibility for overseeing the principal requirements of the Federal regulations.

                      Agencies’    Oversight          Responsibilities




         Exceptional Circumstances           x                   x

         Invention Disclosures                                   x

         Election of Title                                      lx            II

         Utilization Reports                                     x

         Preference   for US Industry                            x



         Sharing Royalties with         1                        x

         Inventors                      I




         Using Royalties for                                     x

         Research and Education

         Preference Given to Small           x                   x

         Business When Licensing



Although NIH has primary oversight responsibility, they apply regulations designed by
Commerce. Therefore, NIH has on occasion requested clarification from Commerce
when determining what would constitute Compliance with certain parts of the
regulations.




                                                 6

While the Depa~ent    of Commeme shares some rmponsibi@ with N~,          it dbes not have
a moniton-ng role.

The Department of Commerce views itself as an ombudsman for complaints

concerning compliance with the regulations. If a complaint were received, it would be

sent to the appropriate agency for review with a request that the agency share the

results with Commerce.


According to Commerce, their regulations allow for decentralized agency decisions on

how to implement policies. Commerce relies on individual agencies to implement

their policies within the broad legal parameter of the regulations. Commerce

recognizes that agencies differ in their level of oversight and has no official opinion on

what the appropriate level should be.


There are two areas where NIH and Commerce share responsibility for oversight:

exceptional circumstances and ensuring that nonprofit grantees give preference to

small businesses when making licensing decisions.


Exceptional Circumstances


In cases of exceptional circumstances, NIH is responsible for making the

determination and the Secretary of Commerce for reviewing NIH’s determination.

Exceptional circumstances occur when NIH determines that restriction or elimination

of the grantee’s right to retain title would better achieve the Bayh-Dole objectives.


When NIH determines that exceptional circumstances exist, it is required to prepare a

written analysis justifying its decision. It shares this analysis with the grantee and the

Secretary of Commerce. The Secretary reviews NIH’s determination.            If NIH’s

determination is found not to conform with the policies and objectives of the

regulations, the Secretary may recommend corrective action.


Small Business Preference


While both agencies agree that Commerce would handle complaints, neither actively

monitors grantee compliance with the small business preference requirement.     Under

this regulation, nonprofit grantees are required to make reasonable efforts to attract

small business licensees. Grantees must also give preference to small businesses when

their marketing plans are as likely to bring about commercialization as the plans of

larger businesses.


While NIH indicated that problems would be forwarded to Commerce for review,

there is no formal mechanism either for identifying problems or for sharing

information with Commerce.





                                             7

l%e NIH has defined its role based on three Bayh-Dole objectives.

The NIH’s oversight has centered main]y on three of the Bayh-Dole Act’s objectives.
The primary objective is encouraging grantees to use the patent system to promote the
utilization of inventions arising from federally-supported research. According to the
former NIH Director, “NIH must continue to seek the rapid development of
discoveries into useful products in order to fulfill our mission to save and improve the
lives of the American people.’”

Through the activities of DEIR, NIH has also focused on two more objectives. The
first is ensuring the government retains its rights to federally-supported inventions.
The NIH protects these rights by securing a non-exclusive license from the grantee
and verifying that the patent contains a clause stating that the invention was made
with NIH support.

The second objective is to minimize the cost of administrative policies. In determining
its oversight role, NIH has focused not on strict monitoring of grantees but rather has
relied on the grantees’ self-interest to ensure compliance. The NIH believes that
compliance with the regulations occurs because it is in the best interest of the grantee
to have clear title to an invention.

l% Nm h responsible for making grantees aware of requkments.

Both NIH and Commerce agree that the granting agency is responsible for making
grantees aware of their rights and obligations under Bayh-Dole. The NIH fulfills this
responsibility by providing several documents to grantees.

All Public Health Service (PHS) grantees receive the PHS Grants Policv Statement,           a
resource manual. Unlike the National Science Foundation which places the standard
patent rights clause in its manual, the PHS manual provides only the citation for the
pertinent Commerce regulations under the Patent and Invention section. It also
explains the different invention reporting requirements.

New grantees receive a “welcome wagon” letter advising them of their responsibilities.
The Institutional Patent Policy Section of this letter cites the Commerce regulations
and advises grantees to refer questions to the appropriate NIH extramural inventions
office. The letter also states, “It is expected that institutions will rely primarily on their
own legal counsel for advice and interpretation of relevant laws and regulations.”

Several notices explaining invention reporting requirements have been published in the
NIH Guide for Grants and Contracts, a weekly publication sent to all grantees and



    7Bernadine Healy, M.D., Statement before the House Committee on Small
Business, Subcommittee on Regulation, Business Opportunities, and Energy, March
11, 1993.


                                              8
interested parties. To make grantees aware of their obligations, invention and patent
requirement information has been published in the Guide five times since February
1990.

Information about patent requirements also appear in the Application for Public
Health Service grants and in the application for contracts and Small Business
Innovation Research (SBIR).

THE NIH HAS LIMITED ITS OVERSIGHT OF GRANTE=  BY NOT
REQUIRING DOCUMENTATION     FOR SOME FEDERAL REQUIREMENTS.

The NIH requires documentation for only certain requirements thereby limiting its
oversight role. Some of this documentation is required by regulation, some is allowed
but not required, and some is not mentioned in the regulation at all.

The regulations require grantees to submit written documentation to granting agencies
for invention disclosure and election of title. In the case of utilization reports, the
regulations allow but do not require agencies to collect them. For the remaining
requirements, the regulations do not outline what information should be required to
document compliance.

The NIH requires documentation for some of these requirements.       However, for four
requirements, NIH does not require grantees to send any documentation or
certification of compliance. The table on the following page identifies NIH’s
documentation requirements.

As required in the regulations, NIH requests nvitten dkclosua-e of ihventibns and ekdon
of title.

If an invention occurs during the life of a funding agreement, NIH requires the
grantee to send an invention disclosure and election of title. In accordance with the
regulations, NIH directs grantees to send a written disclosure within 2 months after
the inventor discloses it in writing to the personnel responsible for handling patent
matters at the grantee institution. Within 2 years after disclosure, NIH requires
grantees to elect to retain or release title to the invention.

As allowed by regulatio~ NEl reques~ utilization repn3 from grantees.

As of October 23, 1992, NIH began requesting that grantees send annual utilization
reports. Since 1990, NIH had been requiring them every 2 years. Before 1990, NH
did not specifically require that utilization reports be sent to them.

Under Federal regulations, agencies may request reports on the grantee’s effort to
utilize the invention. These utilization reports include information on the development
status of the invention, date of first commercial use, and gross royalties collected by
grantee.


                                             9
        Documentation          Required by NIH to Ensure Grantee compliance

 I

 ~]Federal Requirements                      Documentation      Required by NIH
 I For All Grantees:
 !1


 ,1    Invention Disclosures             ~Written Disclosure
                                                                                               I

 ~ Election of Title
 I Utilization Reports
                                         I
                                             Written Election
                                                                                               I
                                         I Annual report
                                         I                                                     II
 I Filing Patents                        I Patent Application and Patent
                                                                                               I
       Ensuring Government      Rights       Patent Application and Patent, U.S. license
                                         I                                                     I




 ~ Sharing Royalties with Inventors
       Using Royalties for Research
                                         1
                                             None
                                             None
                                                                                               I
       and Education
       Preference Given to Small             None
       Business When Licensing


7he NIH chooses to require documentation verijjikg that patent applications are @xi and
ensuring government righ~.

The NIH requires grantees to submit copies of the patent application, issued patent,
and the non-exclusive government license even though not specifically required by the
regulation. The NIH has determined that copies of these documents are needed to
ensure grantee compliance.

The regulation requires grantees to file a patent application        within one year after
election of title and acknowledge government support in the           patent application and
issued patent. It further states that when the grantee elects        to retain title to an
invention, the Federal government shall have a nonexclusive,           nontransferable,
irrevocable, paid-up license to practice the subject invention        throughout the world.

l%e NIH does not monitor grantem to ensure compliance with US. ikthstry and smd
bkness      preferences and royalty r+ements.

The NIH does not require grantees to submit licensing agreements, certification of
meeting royalty requirements, or certification of efforts to give licensing preference to
U.S. industry and small businesses. While the regulations outline these requirements,
they are silent on how the requirements should be documented. Since NIH does not



                                                 10	
require documentation   Of these requirements, it is unable to determine   the extent of

grantee compliance.


U.S. Industrv and Small Business Preference


Since NIH neither reviews the licensing process nor obtains a copy of the invention

license, it is unable to determine whether grantees are complying with the U.S.

industry and small business preference requirements. When a grantee licenses an

invention, it allows a firm to use the invention to commercialize the product in

exchange for a licensing or royalty fee. Regulations require that all grantees license to

companies that will manufacture the invention substantially in the U.S. and that

nonprofit grantees give preference to small business.


In the case of the U.S. manufacturing requirement, grantees may apply for a waiver if

reasonable efforts to meet it are unsuccessful. With no formal documentation

required, the only way NIH learns this requirement is not being met is when a grantee

requests a waiver or if a complaint is received. The recent university survey found

that only 20 percent of the research-support agreements (from some 100 universities

surveyed) had clearly established U.S. manufacturing clauses.8


The NIH has no formal mechanism to determine whether nonprofit grantees have

given preference to small business. According to their recent survey, approximately 44

percent of research-support agreements collected were with small businesses?


Rovaltv Requirements


The NIH does not require any certification, financial reports, or other information

from nonprofit grantees to verify compliance with the royalty requirements in the

Federal regulations. The NIH considers this proprietary information. They also

consider the royalty requirements to be self-enforcing, believing that inventors would

advise NIH if grantees failed to comply,


According to Federal regulations, any royalties received from the licensing of

inventions must be shared with inventors. In addition, the balance of royalties after

expenses must be used to support scientific research and education. The Federal

regulations do not specify what information granting agencies need to collect to verify

that royalty requirements are being met.




    *Bernadine Healy, M.D., Statement before the House Committee on Small
Business, Subcommittee on Regulation, Business Opportunities, and Energy, June 17,
1993.

    ‘Bernadine Healy, M. D., Statement before the House Committee on Small
Business, Subcommittee on Regulations, Business Opportunities,
                                                  .-           and Energy,
                                                                        —.	 June 17,
1993.


                                           11

THE NIH LACKS A SYSTEMATIC PROCESS FOR ENSURING THAT
GRANTEES SUBMIT ALL REQUIRED INVENTION INFORMATION.

The NIH does not follow up systematically with grantees to ensure that required
information is submitted. Although NIH does require grantees at the end of a grant
to certify if any invention occurred during the granting period, NIH has no way of
knowing if grantees are providing accurate information. Without this information,
NIH may not be aware of inventions funded with their research dollars and can not be
certain that grantees are complying with Federal requirements. AS outlined in the
previous finding, NIH requires grantees to send them documentation for invention
disclosures, elections of title, utilization reports, patent applications, issued patents,
and the U.S. non-exclusive licenses. The DEIR has created a database to store the
information collected from grantees.

Although NIH requires grantees to submit this documentation within specific time
frames, it has not created a system for determining whether documents are submitted
timely. Due to a lack of staff time and resources, the DEIR has not made reviewing
grantees for timeliness a priority. The Division has stated that it instead focuses on
ensuring that government rights are recognized through the acknowledgement of
government support in the patent and through the granting of the government’s
non-exclusive license.

According to NIH, they do not perform strict monitoring of grantees believing that
grantees are responsible for ensuring that the terms of their funding agreements are
met. The NIH explained that it is in the best interest of the grantees to comply
because the title to inventions is at stake.

The DEIR has chosen not to penalize grantees who do not send information when
required. While the regulations allow granting agencies to take title to grantees’
inventions if they do not meet certain requirements, NIH believes this punitive
approach is contrary to the primary Bayh-Dole objective of allowing grantees to retain
the rights to their inventions. Instead, when problems arise, DEIR informs grantees of
their requirements and asks that the necessary information be sent.

A detailed explanation of the invention reporting process is provided in Appendix B.

The NIH does not review invention disclosures and elections of tide for timeliness and has
no way of knowing if grantees are in compliance.

Invention disclosures      are not entered into the computer database to ensure that
elections of title are    received within 2 years after disclosure. When DEIR receives a
disclosure it files the    paper copy by grantee name, but does not enter the information
into the database as      it is considered preliminary in nature. A computer file is opened
and the information       is input only after DEIR receives the election of title.




                                                12

Disclosures are accepted at any time because without reviewing grantee and inventor
files DEIR can not ascertain if they were sent within the 2 month time limit. The
DEIR considers late disclosures and elections to be de facto requests for time limit
extensions. By regulation, grantees can request extensions of time and agencies can
grant them at their discretion. The DEIR always grants extensions to grantees when
requested.

The DEIR has no method for ensuring that grantees are making all the necessary
disclosures and elections of title. Once again, without reviewing grantee files, NIH is
unable to ascertain whether it is receiving disclosures to all inventions that occurred
during the funding period.

l%e NIH does not examine annual utilization rep~     to monitor grmatem’
commemialization ejjXorts.

Even though NIH has required grantees to submit utilization reports since 1990, it has
not established procedures to ensure that the reports are submitted when due, and
does not review forms to monitor grantees’ commercialization efforts.

Earlier this year, NIH specified that utilization reports are required only for licensed
inventions that have generated income. Since grantees who have yet to license their
products no longer need to report, NIH no longer has a means of monitoring grantees’
commercialization efforts. This is significant since NIH can exercise its march-in rights
if it determines a grantee has not taken effective steps to commercialize an invention.

Prior to 1990, NIH grantees may have sent these utilization reports to Commerce.
Commerce developed a standardized Invention Utilization Report that grantees were
encouraged to use. Once received, Commerce shared copies of the form with the
appropriate granting agencies. Although Commerce no longer shares the reports, they
noted that they continue to receive these forms occasionally from grantees.

In order to clear up confusion and assure receipt of utilization reports, DEIR
developed a Subject Invention Utilization Form for its grantees earlier this year.
Among other items, the form requests proprietary information on licensing and
royalties. The DEIR indicates on the new form that reports should now be sent
directly to their office. See Appendix C for a sample form.

fie NZH has no system to ensure the~ filing of pauwt applications.

The NIH does not monitor grantees to ensure that patent applications are filed within

one year of election of title. However, when applications or issued patents are sent,

DEIR’s policy is to review them for the statement acknowledging government suppofi.

If the statement is missing, DEIR requests the grantee to include the

acknowledgement.





                                           13

When grantees send the     patent application, NIH also requires them to send a copy of
the government license.    If the license is not sent at this time, DEIR will inform them
of the requirement. The     DEIR provides a sample licensing form to universities upon
request. An example of     this form appears in Appendix C.

After the patent application, issued patent, and license are received, DEIR records
this information in the database file. Some grantees submit patent applications for
inventions that were never disclosed or where rights were never elected. In these
cases, DEIR opens a new computer file and no penalties are applied.

As a check to the process, NIH doer provide additwnal oppommities for grantees to repoti
inventions and patents.

Grantees are required to certifi whether        inventions or patents have occurred when
applying for a continuing grant and also      when a grant is completed. The DEIR
receives copies of all these certifications    and compares them with their records. If
there are inconsistencies, information is     requested from grantees.

On the grant application filed for a continuation grant, the grantee must check if any
inventions or patents occurred and if they were reported. When a grant is completed,
the grantee must certify on the Final Invention Statement and Certification whether
inventions occurred and when they were reported. Institutions who hold NIH
contracts are also required to certify if inventions were made on a Contractor’s
Certification.  Examples of these forms can be found in Appendix C.

THE NIHDOES NOT FULLY UTILIZE ITS INVENTION                         DATABASE     TO
MONITOR GRANTEE COMPLIANCE.

The NIH is not fully utilizing the DEIR database’s potential for monitoring or
reporting out information. The DEIR developed the easy-to-use REFLEX database
for storing invention information. Prior to the creation of the database, invention
information was stored on the Patent Management Information System (PMIS). The
PMIS contains about 5000 files and the new database about 3800. ArI example of an
invention record is shown on the next page. A sample computer file record and a
description of what is stored in the record fields appears in Appendix D.

By using the fields already containing dates (Djsc]osed, Application Date) and adding
a date field for retaining rights, the DEIR could use the database to determine when
information is due from grantees and thereby have a mechanism for measuring
grantee timeliness. Information from the database could be used periodically to
inform grantees that certain requirements have not yet been met.

The information now in the system is not utilized for any purpose or reported out to
any NIH office. More complete information on commercialization from the utilization




                                                14

reports could be recorded in the database and then reported to NIH management and
the public. This outcome information would illustrate one benefit of public funding of
research.

                                 Sample Database Record


             Grantee:


             Name 1:


             Grant 1:


             Patent Title:


             Disclosed:


             Retained Rights:


             US License:


             Support Acknowledged:


             Serial Number:


             Patent Serial:


             Special Note:


             Licensed:




While DEIR is aware of its database capabilities, large workloads and little staff time
have not allowed them to fully use the database. A limited DEIR review of the
invention and licensing information sent by approximately 30 universities recently
sumeyed found that in more than half of the cases the information sent by the
universities did not match the information in DEIR’s files. Improving the monitoring
capabilities of the database could improve grantee compliance with requirements.




                                           15

 reports could be recorded in the database and then reported to NIH management and
 the public. This outcome information would illustrate one benefit of public funding of
 research.

                                     Sample Database Record


                 Grantee:


                 Name 1:


                 Grant 1:


                 Patent Title:


                 Disclosed:


                 Retained Rights:


            IIUS License:

                 Support Acknowledged:

                 Serial Number:

            ,,
                 Patent Serial:

                 Special Note:

                 Licensed:


While DEIR is aware of its database capabilities, large workloads and little staff time
have not allowed them to fully use the database. A limited DEIR review of the
invention and licensing information sent by approximately 30 universities recently
surveyed found that in more than half of the cases the information sent by the
universities did not match the information in DEIR’s files. Improving the monitoring
capabilities of the database could improve grantee compliance with requirements.




                                              15

                   RECOMMENDATIONS


This report describes how NIH carries out its oversight role in ensuring grantee
compliance with the Federal regulations implementing the Bayh-Dole Act. We realize
that in designing its role, NIH has had to balance several priorities. These priorities
include encouraging the commercialization of NIH-supported inventions, minimizing
the administrative burden of grantee monitoring, and ensuring that the rights of the
government and public are upheld. We also recognize the dedication of the Division
of Extramural Invention Reports staff for handling a large volume of work with limited
resources.

The following recommendations address fundamental problems with NIHs existing
oversight role. These recommendations are consistent with the findings of a review
done by the Office of Audit Services (OAS) within the Office of Inspector General.
The OAS found that one NIH grantee had not fully complied with Bayh-Dole
reporting requirements and that NIH did not have effective procedures to detect this
non-compliance.

Accordingly, we recommend the following.

o	    The NIH should reexamine its current oversight role to determine if
      improvements could be made in the monitoring of grantee compliance with
      Bayh-Dole requirements. While we believe the NIH monitoring role should not
      be so constricting as to hinder the overriding purpose of commercialization that
      is central to the intent of the Bayh-Dole Act, we also believe that NIH needs to
      have an effective monitoring role to preseme the additional Bayh-Dole Act
      objectives of protecting the public investment in research and promoting small
      businesses and U.S. manufacturing. We do not believe that grantee self-
      monitoring would ensure that all of these objectives are met.

      We believe the NIH needs to increase its monitoring of grantee compliance
      especially in the areas of royalties, and small business and U.S. manufacturing
      preferences. However, we recognize the need to consider the views of the full
      spectrum of affected parties, including the research community, when
      implementing an improved monitoring process.

      To create more effective monitoring procedures, the NIH may determine the
      need to recommend that the Department of Health and Human Services issue
      its own regulations for implementing Bayh-Dole requirements. This may clarify
      NIH and grantee responsibilities under the Bayh-Dole Act.

o	    The NIH should (1) add more detailed licensing and utilization information to
      its invention database and (2) use the database to track grantees for timely
      compliance. The data could be aggregated periodically and used to gauge
      progress in commercializing NIH-supported    inventions.


                                           16
AGENCY         COMMENTS

The NIH commented         on the draft report and the full text of their comments is in

Appendix E.


The NIH concurred with our first recommendation that NIH reexamine its oversight

role to determine if improvements could be made in the monitoring of grantee

compliance with Bayh-Dole requirements. The NIH indicated it had made a major

step in evaluating its current oversight role of Bayh-Dole through the sponsoring of a

two day public forum by the Task Force on the Commercialization of Intellectual

Property Rights from Extramural Research.


The forum, entitled “Forum on Sponsored Research Agreement: Perspectives,

Outlook and Policy Development,” was held to solicit the views of an external panel of

experts and the public on issues related to research support agreements between

grantees and industry in which NIH funding was involved.


The preliminary recommendations            of the panel suggest that:


         (1) the grantee institutions rather than the Federal Government should be the
         primary monitors of compliance with the Bayh-Dole Act provisions concerning
         the utilization and preference for small business, and

         (2) NIH should focus on providing educational,           and/or policy Widance to the
         institutions on this matter.

The panel also stated that stringent guidelines and reporting requirements could have
a detrimental effect on technology transfer and the ultimate commercialization of
Federally funded research.

We commend NIH for convening both the task force and the public forum to address
issues surrounding the commercialization of federally-funded extramural research.
We also commend NIH for eliciting the views of universities and parties who will in
the end be affected by any NIH policy decisions.

We agree with the panel that NIH monitoring            should not overburden research
institutions   to the point of hindering     the goal of technology transfer and
commercialization.      However, the Bayh-Dole Act also outlines the following objectives:

         o	      ensure that inventions made by nonprofit organizations and small
                 business firms are used in a manner to promote free competition and
                 enterprise;

         o	      promote the commercialization and public availability of inventions
                 made in the United States by United States industxy and labor; and


                                                   17
       c1	    ensure the Government obtains sufficient rights in federally supported
              inventions to meet the needs of the Government and protect the public
              against nonuse or unreasonable use of inventions.

We are not convinced that self-monitoring by grantee institutions will ensure that the
above objectives will be met. Under the minimum requirements of NIH’s current
monitoring, universities did not always adequately support these objectives. In a
recent draft report, the Office of Audit Services detailed one research institution’s lack
of compliance with the Bayh-Dole requirement that grantees acknowledge federal
support when filing a patent for a new invention. The NIH also found during its
recent 100 university survey that only 20 percent of research-support agreements
between universities and outside companies had clearly established U.S. manufacturing
clauses. In addition, only 44 percent of these agreements were with small businesses.

We believe that NIH’s current lack of grantee monitoring in the areas of preference
for U.S. industry in manufacturing and preferences to small businesses when licensing
may have led to the universities’ inadequate promotion of these objectives.

We continue to believe that NIH must exercise a strong monitoring role in order to
ensure that an equitable balance is struck between commercializing federally-
supported inventions and protecting the public’s investment in research.

The NIH concurred with our second recommendation that more detailed licensing and
utilization information should be added to their invention database and that the
database should be used to track grantees for timely compliance. Although NIH
stated that it is not certain that requiring grantees to submit more detailed reports is
the most effective means of ensuring compliance with the Act, they did agree to
evaluate the usefulness of information currently collected and consider requesting
different or additional information for use in monitoring compliance and illustrating
public benefits from federally-funded research.

We support NIH’s evaluation of the usefulness of reporting information received from
grantees. We believe that the issue may not be one of increasing the volume of
information requested but improving the content and method of grantee reporting.
Therefore, we regard NIH’s intention to establish electronic transfer of reporting
information as an important step toward improving the grantee reporting process.




                                            18

          APPENDIX                A




Regulations   Implementing    the Bayh-Dole   Act
                   37 CFR    401




                         A-1
  CHAPTER          IV—ASSISTANT                           SECRETARY                    FOR
   TECHNOLOGY                    POLICY,              DEPARTMENT                        OF
                                COMMERCE


Part                                                                                         Page
401    Rights      to inventions         made       by nonprofit    organizat-
         ions       and     small     business       firms   uncier   Gover-
         nment      granti,      contracts,        and   cooperative agree-
          ments .............. ............................................ ..............
                    �             �                                        �            �
                                                                                             460
404    Licensing  of Government owned inventions ............                                476




                                      A-2

4401.1                                               37 CFR Ch. IV (7-l-92     Edition)

PART 401-41GHTS TO INVENTIONS                  the two funds used to support the
  MADE BY NONPROFIT ORGANIZA­                  project in this case is not a determin­
  TIONS   AND   SMALL BUSINESS                 ing factor.
                                                 (1) To the extent that a non-gover­
  FIRMS    UNDER   GOVERNMENT                  nment sponsor established a Project
  GRANTS, CONTRACTS, AND CO-                   which. although closely related, ”falls
  OPERATIVE AGREEMENTS                         outside the Planned and committed ac­
                                               tivities  of   a   government-funded
sec.                                           project and does not diminish or dis­
401.1 Scope.                                   tract from the performance of such ac­
401.2 Definitions.
401.3 Use of the standard clauses at           tivities. inventions made in perform­
    $401.14.                                   ance of the non-government sponsored
401.4 Contractor appeals of exceptions.        project would not be subject to the
401.5 Modification and tailoring of clauses.   conditions of these regulations. - ex-
401.6 Exercise of march-in rights.             ample of such related but separate
401.7 Small business preference.               projects would be a government spon­
401.8 Reporting on utilizauon of subject
    inventions.                                sored project having research ob@c­
401.9 Retention of rights by contractor em­    tives to expand scientific understand­
    ployee inventor.                           ing in a field and a closely related in­
401.10 Government sswgnrnent to contrac­       dustry sponsored project having as i-
    tor of rights in invention of government   objectives the application of such new
    employee.                                  knowkdge to develop usable new tech­
401.11 APpeais.                                nology. The time relationship    in con­
401.12 Licensing of background patent          ducting the two projects and the use
    rights to third parties.
401.13 Administration       of patent rights   of new fundamental      knowledge   from
    clauses.                                   one in the performance      of the other
401.14 Standard patent rights clauses.         are not important    determinants   since
401.15 Deferred determinations.                most inventions   rest on a knowledge
401.16 Submissions and inquiries.              base built up by numerous independ­
   AUTHORITY35 U.S.C. 206 and the delega­      ent research efforts extending over
tion of authority by the Secretary of Com­     many years. Should such an invention
merce to the Assistant Secretary of Com­       be claimed by the performing organi­
merce for Technology Policy at sec. 3(g) of    zation to be the product of non-gov­
DOO 10-18.                                     ernment sponsored research and be
  SOURCE52 FR 8554, Mar. 18. 1987.unless       challenged by the sponsoring agencY
otherwisenoted.                                as being reportable to the government
                                               as a ‘“subject invention”, the challenge
5401.1 scope.                                  is     appealable   as    described    in
  (a) TrmWionall y there have been no          $ 401.ll(d).
conditions imposed by the government              (2) An invention which is made out-
on research performers     while using         side of the research activities of a gov­
private facilities which would preclude        ernment-funded project is not viewed
them from accepting research funding           asa      “subject  invention” since it
from other sources to expand. to aid in        cannot be shown to have been “con­
completing or to conduct separate in­          ceived or first actually reduced to
vestigations closely related to research       practice”     in performance     of the
activities sponsored by the govern­            Project. An obvious example of this is
ment. Notwithstanding the right of re-         a situation where an instrument pur­
search organizations to accept supple-         chased with government funds is later
mental funding from other sources for          used. without interference with or cost
the purpose of expediting or more              to the government-funded project, in
comprehensively accomplishing the re-          making an invention all expenses of
search objectives of the government            which involve only non-government
sponsored project, it is clear that the        funds.
ownership provisions of these regula­             (b) This part inplement.s 35 U.S.C.
tions would remain applicable in any           202 through 204 and is applicable to
invention ‘“conceived or first actually        all Federal agencies. It applies to ail
reduced to practice in performance” of         funding agreements with smail busi­
the rxoject. Separate accounting for           ness firms and nonprofit organizations


                                     A-3

Dopartmont of Commwc*

executed after the effective date of            ations requiring the Secretary’s aP-
this part, except for a funding agree­          Proval. Three comes of proposed and
ment made primarily for educational             final agency regulations sumdement­
purposes. Certain sections also provide         ing this part shall be submitted to the
guidance for the administration of              Secretary at the office set out in
funding agreements which predate the            $401.16 for approval for consistency
effective date of this part. In accord­         with this part before they are submit­
ance with 35 U.S.C. 212. no scholar-            ted to the Office of Management and
ship, fellowship, training grant, or            Budget (OMB) for review under Exec­
other funding agreement made by a               utive Order 12291 or, if no submission
Federal agency primarily to an award­           is rec,uired to be made to OMB, before
ee for educational purposes will con­           their submission to the FEDmtAL  REGIS-
tain any provision giving the Federal           TERfm publication.
agency any rights to inventions made               (f) In the event an agency has out-
by the awardee.                                 standing prime funding a-ee~:ents
   (c) The march-in and appeals proce­          that do not contain patent flow-down
dures in $3401.6 and 401.11 shall               provisions consistent with this Part or
apply to any march-in or appeal pro­            earlier Off ice of Federal Procurement
ceeding under a funding agreement               Policy regulations (OMB Circular A-
subject to Chapter 18 of Title 35,              124 cr OMB Bulletin 81-22), the
U.S.C., initiated after the effective           agency shall take auProPfi*       =tion
date of this part even if the funding           to ensure that small business firms or
agreement was executed prior to that            nonprofit organizations that are sub-
date.                                           contractors under any such agree­
   (d) At the request of the contractor,        ments and that received their subcon­
a funding agreement for the operation           tracts after July L 1981. receive rights
of a government-owned facility which            in their subject inventions that are
is in effect on the effective date of this      consistent with Chapter 18 and this
part shall be promptly amended to in­           part.
clude the provisions required by
                                                    (g) This part is not intended to
$$ 401.3(a) unless the agency deter-            apply to arrangements under which
mines that one of the exceptions at 35
                                                nonprofit organizations. small busi­
U.s.c.       202(a)(i)    through      (iv)
                                                ness firms, or others are allowed to use
$ 401.3(a)(8) through (iv) of this part)
is applicable and will be applied. If the       government-owned research facilities
exception at S401.3(a)(iv) is deter-            and normal technical assistance pro­
mined to be applicable. the funding             vided to users of those facilities.
agreement will be promptly amended              whether on a reimbursable or non-
to include the provisions required by            reimbursable basis. This part is also
 $ 401.3(C).                                    not intended to apply to arrangemen~
   (e) This regulation supersedes OMB           under which sponsors reimburse the
Circular A-124 and shall take prece­             government or facility contractor for
dence over any regulations dealing              the contractor employee’s time in per-
with ownership of inventions made by             forming work for the spo~or. Such
small businesses and nonprofit organi­           arrangements      are not considered
zations which are inconsistent with it.          ‘“funding agreements” as defined at 35
This regulation will be followed by all          U.S.C. 201(b) and $ 401.2(a) of this
agencies pending amendment               of      part.
 agency regulations to conform to this
part and amended Chapter 18 of Title            9401.2 Definitions.
 35. Only deviations requested by a con-          As used in this part—
tractor and not inconsistent        with          (a) The term funding        agreement
Chapter 18 of Title 35, United States           means any contract, grant. or coopera­
Code, may be made without approval              te agreement      entered into between
of the Secretary. Modifications or tai­         any Federal    agency,  other than the
loring of clauses as authorized       by        Tennessee   Valley AuthoritY,   and anY
! 401.5 or $401.3. when alternative pro-        contractor  for the performance    of ex­
visions are used under $ 401.3(a)(1)            perunental.    developmental.    or re-
through (4), are not considered devi­           search work funded in whole or in Part




                                              A-4

                                                   37 cm Ck Iv (7-W2        Edition)

by the Federal government. This term         (h) The term normmfit om?anization
also includes anY assignment, substitu­    means   universities and other institu­
tion of parties, or subcontract of any     tions of higher edUC@On or an organi.
type entered into for the performance      zation of the type descr’i~    k section
of experimental. development@ or re-       501(c)(3) of the Internal Revenue
search work under a funding agre           Code of 1954 (26 U.S.C. Sol(c) and
ment as defined in the first sentence      exempt from taxation mder section
of this paragraph.                         501(a) of the Internal Revenue Code
   (b) The term contractor means anY       (26 U.S.C. 501(a)) or anY nonlx’ofit sci­
person. small business firm or non-        entific or educational      onranhzation
profit o nranization which ~ a P-Y to      qualified under a state nonprofit orga­
a funding agreement.                       nisation statute.
   (c) The term invention means anY          (i) The term Chapter 18 mean8
invention or discovery which is or may     Chapter 18 of Title 35 of the United
be patentable or otherwise protectable     States Code.
under Title 35 of the United States          (j) The term Secn?tam means the
Code, or any novel variety of plant        Secretary of Commerce or Ma or her
which is or may be protectable under       designee.
the Plant Variety Protection Act (7
U.S.C. 2321 et sea.).                      ff401.3 Use of the standard Ciallses *
   (d) The term sub~t         inuention         6401.14.
means any invention of a contractor           (a) Each fundine agreement awarded
conceived or first actually reduced to     to a snail business firm or nonprofit
practice in the perforrnance of work       organization (except th~        ~bject to
under a funding agreemerm provided         35 U.S.C. 212) shall contain the clause
that in the case of a variety of plant.    found in $ 401.14(a) with such modifi­
the date of determination (as defined      cations and tailoring as authorized or
in section 41(d) of the Plant Variety      required elsewhere in tMs part How-
Protection Act, 7 U.S.C. 2401(d)) must     ever, a funding agreement maY con­
also occur during the period of con­       tain alternative provisions­
trad performance.                             (1) When the con~r         is not loca&
   (e) The term Practical uP@4cation       ed in the United States or does not
means to manufacture in the case of a      have a place of busine     located in the
composition of product, to practice in     United States or is subject to the con­
the case of a process or meth@ or to       trol of a foreign government or
operate in the case of a machine or           (2) In exceptional      circWM@l­
s ysterm an& in each case, under such      when it is determined by the SgencY
conditions as to establkh that the in­     that restriction or eifrnination of the
vention is being utilized and that its     right to retain title to any sub@ct @
benefits are. to the extent permitted      vention will better promote the poficy
by law or government regulations,          and objectives of ChaRter la of ~~e
available to the public on reasonable      35 of the United States Code%or
terms.                                        (3) When it is determined by a ffov­
   (f) The term nuzti when used in re­     ernment authority which is autho~
lation to any invention means the con­     by statute or executive order to con-
ception or first actual reduction to       duct foreign intelligence or coun**­
practice of such invention.                telligence activities that the restri~
   (g) The term smalZ tntsiness /irnz      tion or elimination of the right to
means a small business concern as de-      retain title to any subject mven~on b
fined at section 2 of Pub. L. 85-536 (15   necessary to protect the sectitY to
U.S.C. 632) and implementing regula­       such activities. or
tions of the Administrator of the             (4) When the f Unding agreement’­
Small Business Administration. For         ‘eludes the operation of the govem­
the purpose of this part, the size         rnent-owned. contractor+pemted f*fl­
standards for small business concerns      itY of the Department of Energy P~­
invoived in government procurement         mMilY dedicated to that Department’s
and subcontracting at 13 CFR 121.5         naval nuclear propulsion or wea~~
will be used.                              related programs      and    ~    f~”




                                      A-5

agreement Mnitations under this sub-       authorized to negotiate such modified
paragraph on the contractor’s right to     provisions with respect to task orders
elect title to a subject invention are     added to a funding a$meement after its
limited to inventions occurring under      initial award.
the above two Programs.                       (e) Before utilizing anY of the excew
 (b) When    an agency   exercises   the   tio~ in # 401.3(a) of this s~tion, the
exceptions at * 401.3(a)( 21 or (3), it    agency shail PrePare a written deter­
shall use the standard clause at           mination, including a statement of
$ 401.14(a) with oniy such modifica­       facts supporting the determination,
tions as are n~          to address the    that the conditions identified in the
exceptional circumstances or concerns      exception exist. A separate statement
which led to the use of the exception.     of facta shall be prepared for each ex­
For example, if the justification re­      ceptional circumstances        determina­
lates to a Particular field of use or      tion, except that in appropriate -es
market, the clause might be modified       a single determina tion may apply to
along lines similar to those described     both a funding agreement and anY
in $ 401.14(b). In anY event, the clause   subcontracts issued under it or to anY
should provide the contractor with an      funding agreement to which such an
opportunity to receive greater rights      exception is applicable. In C=S when
in accordance with the procedures at       s 401.3(a)(2) is uae& the detemtion
$401.15. When an agency justifiesand       shall aiao include an analysis justify­
exercises the exception at # 401.3(a)(2)   ing the determination. Th~ *Ys*
and uses an alternative provision in       should address with specificity how
the funding agreement on the basis of      the alternate provisions will better
nationai security. the provision shall     achieve the objectives set forth in 35
provide the contractor with the right      U.S.C. 200. A copy of each determina­
to elect ownership to any invention        tion, statement of facts, and. if appli­
made under such funding agreement          cable, anaiyais shall be PrOmPtiY Pr­
as provided by the Standard Patent         ovidedto the contractor or prospective
Rights Clause found at $ 401.14(a) if      contractor along with a notification to
the invention is not classified by the     the contractor or prospective contrac­
agency within six months of the date       tor of its rights to appeal the determi­
it is reported to the agency, or within    nation of the exception under 35
the same time period the Department        U.S.C. 202(b)(4) and 5401.4 of this
of Energy does not, as authorized by       part.
regulation, law or Executive order or         (f) Except for determinations under
implementing regulations thereto, pro­      5 401.3(a)(3). the agency shall also pro-
hibit unauthorized dissemination of        vide copies of each determination,
the invention. Contracts in support of     statement of fact. and analysis to the
DOE’s naval nuclear propulsion pro-        Secretary. These shall be sent within
gram are exempted from this para­          30 days after the award of the funding
maph.                                      agreement m which they Per@~.
   (c) When the Department of Energy       Copies shall also be sent to the Chief
exercises      the     exception           Counsei for Advocacy of the Small
 $401.3(a)(4), it shall use the ciawa~     Business Adrnidatration if the fund­
Prescribed at Q401.14(b) or substitute     ing agreement is with a small business
thereto   with such modification and       firm. If the Secretary of Commerce
tailoring  as authorised or required       beiieves that anY individual determi­
eIsewhere in this Part.                    nation or pattern of determinations is
  (d) When a funding agreement in­         contrary to the policies and objectives
volves a series of separate task orders,   of this chapter or otherwise not in
an agency may apply the exceptions at      conformance with this chapter, the
$401.3(a)(2) or (3) to individual task     Secretary shall so advise the head of
orders. and it may structure the con-      the agency concerned and the Admin­
tract so that modified patent rights        istrator of the Office of Federal Pro­
provisions will ap~ly to the task order    curement Pol.icY and recommend cor­
even though the clauses at either          rective actions.
$401.14(a) or (b) are applicable to the       (g) To assist the Comptroller Gener­
rema~der of the work. Agenciesare          al of the United States to accomplish




                                            A-6

$401.4                                              37 CFR Ch. IV (7-1-92   Edition)
his or her responsibilities under 35        days from the time it receives a copy
U.S.C.   202, each Fecierai agency that     of the agencY’s determination, or
enters into any funding agreements          within such longer time as an agency
with nonprofit organizations or smail       may specifY in its regulations. The
business firms shall accumulate and,        contractor’s notice should specifically
at the request of the Comptroller Gen­      identify the basis for the appeal.
eral, provide the Comptroller General          (2) The appeal shall be decided by
or his or her duly authorized reRre­        the head of the agencY or by his/her
sencative the total number 01 prime         designee who is at a levei above the
agreements entered into with small          person who made the determination.
business   firms or nonprofit organiza­     If the notice raises a genuine dispute
tions that contain the paLent rignts        over the materiai facts. the head of
ciause in this part or under OMB Cir­       the agency or the designee shall un­
cular A-124 for each fiscal year begin­     dertake, or refer the matter for, fact-
ning with October 1, 1982.                  finding.
  (h) To qualify for the standard              (3) Fact-finding shall be conducted
ciause, a prospective contractor may        in accordance with procedures estab­
be required by an agency to certify         lished by the agency. Such procedures
that it is either a smail business firm     shall be as informal u practicable and
or a nonprofit organization. If the         be consistent with principles of funda­
agency has reason to question the           mental      fairness.   The   procedures
status of the prospective contractor as     should afford the contractor the op­
a small business firm, it may file a pro-   portunity to appear with counseL
test in accordance with 13 CFR 121.9.       submit documentary evidence, present
If it questions nonprofit status, it may    witnesses and confront such persons
require the prospective contractor to                                                   .,
                                            as the agency may rely upon. A tran­
furnish evidence to establish its status    scribed record shall be made and shall
= a nonprofit organization.                 be available at cost to the contractor
                                            upon request. The requirement for a
5401.4 Contractor appeals of exceptions.    transcribed record may be waived by
  (al In accordance with 35 U.S.C.          mutual agreement of the contractor
202(b)(4) a contractor has the right to     and the agency.
an administrative review of a determi­         (4) The off icial conducting the fact-
nation to use one of the exceptions at      finding shall prepare or adopt written
$ 401.3(a) (1) through (4) if the con-      findings of fact and transmit them tO
tractor believes that a determination       the head of the agency or dm~ee
is either contrary to the policies and      promptly after the conclusion of the
objectives of this chapter or consti­       fact-finding proceeding aiong ~~ a
tutes an abuse of discretion by the         recommended decision. A COPYof the
agent y. Paragraph   (b) of this section    findings of fact and recommended de­
specifies the procedures to be followed     cision shall be sent to the contractor
by contractors and agencies in such         by registered or certified mail.
cases. The ~ertion of such a claim by          (5) Fact-finding should be comPle~
the contractor shall not be used as a       within 45 working days from the **
basis for withholding or delaying the       the agency receives the contra@@s
award of a funding agreement or for         written notice.
suspending performance under an                (6) When fact-finding h= been @n­
award. Pending final resolution of the      ducted, the head of the agencY or d*
claim the contract may be issued with       ignee shall base his or her decision on
the patent rights provision proposed        the facts found. together with ~Y ~“
by the agency; however. should the          gUment submitted by the contrScWro
final decision be in favor of the con-      agency officials or any other ~0--
tractor. the funding agreement will be      tion in the administrative record. In
amended accordingly and the amend­          c=es referred for fact-f~tigt        the
ment. made retroactive  to the effective    agency head or the designee -y
date of the funding agreement.              reject only those facts that have been
  (b)(1) A contractor  may armeal a de-     found to be cieariY erron~wo but
termination    by provi~ing- written        mUStexplicitly state the rejection ~
notice to the agency within 30 working      indicaLe the bxk       for the con-




                                        A-7

Department of Commerce                                                              $401.5

finding.
 The agency head or the desig­          communications may also be included
nee may hear oral arguments after                in paragraph f1).
fact-finding provided that the contrac­            (c) Agencies may replace the itali­
tor or contractor’s attorney or repre­           cized words and phrases in the clauses
sentative is present and given an op­            at s 401.14 with those aPprop*te      to
portunisty to make arguments and re­             the particular funding a-cement.    For
buttal. The decision of the agency               example, “contracts”    could be re­
head or the designee shall be in writ­           @ced by “grant.” “contwtor”          W
ing and, if it is unfavorable to the con-        “grantee.” and “contracting    officer”
tractor shall include an explanation   of        by “grants officer.” Depending on its
the basis of the decision. The decision          use, “Federal agency” can be replaced
of the agency or designee shall be               either by the identification of the
made within 30 working days after                agency or by the specification of the
fact-finding or, if there was no fact-           particular office or official within the
finding, within 45 working days from             agency.
the date the agency received the con­              (d) When the agency head or duly
tramor’s written notice. A contractor            authorized designee determines at the
adversely affected by a determination            time of contracting with a small busi­
under this section may, at any time              ness firm or nonprofit organization
within sixty days after the determina­           that it would be in the national inter­
tion is issued. file a petition in the           est to acquire the right to sublicense
United States Claims Court, which                foreign governments or international
shall have jurisdiction to determine             organizations pursuant to any existing
the appeal on the record and to                  treaty or international agreement. a
affirm, reverse, remand, or modify as            sentence may be added at the end of
appropriate, the determination of the            paragraph (b) of the clause at 5401.14
Federal agency.                                  as follows
5401.5 Modification and tailoring of               This licensewill include the right of the
    ciauses.                                     government to sublicense foreign govem­
                                                 menta. their nationtds. and timmatio~    or­
  (a) Agencies should complete the               ganizations. pursuant to the following trea­
blank in paragraph (g)(2) of the                 ties or international agreements:
clauses at $401.14 in accordance with
their own or applicable government-
wide regulations such as the Federal             The blank above should be completed
Acquisition Regulation. In grants and            with the names of applicable existing
cooperative agreements (and in con-              treaties or international agreements.
tracts. if not inconsistent with the             agreements of cooperation, memorand­
Federal Acquisition Regulation) agen­            a of understanding, or simil~ ~­
c~es wishing to apply the same daUSe             rangements, including militarY afmee­
to all subcontractors as is applied to           ments relating to weapons develop­
the contractor may delete paragraph              ment and production. The above lan­
~g)(2) of the clause and delete the              guage is not intended to apply to trea­
words “to be performed by a small                ties or other agreements that are in
business firm or domestic nonprofit              effect on the date of the award but
organization” from paragraph (g)(1).             which are not listed. Alternatively,
-Also, if the funding agreement    is a          agencies may use substantially similar
grant or cooperative      agreement,     para­   language relating the government’s
.~aph    (g)(3) may be deleted.         When     rights to specific treaties or other
either paragraph     (g)(2) or paragraphs        agreements identified elsewhere in the
{g) ( 2) and (3) me deleted, the remain­         funding agreement. The language maY
!ng paragraph      or paragraphs       should    also be modified to make clear that
De renumbered     appropriately.                 the rights granted to the foreign gov­
   ~b ) Agencies  should complete        para-   ernment. and its nationals or an inter-
 graph (l). “’Communications”.         at the    national organization may be for addi­
end of the clauses at $ 401.14 by desig­         tional rights beyond a license or subli­
 nating a central point of contact for           cense if so required by the app~i~ble
 communications     on matters relating to       treaty or international agreement. For
 !he clause. Additional     instructions    on   example. in some exclusive licenses or



                                                 A-8

                                                             37 CfR Ch. IV (7-l-92       Edition)
even the assignment of title in the for­          ment. up to any amount equal to five per-
eign country involved might be re­                cent of the budget of the fac~tY for that
quired. Agencies may also modify the              fiscal year, shall be used by the contractor
language     above to provide for the             for scientific research. development     and
direct licensing by the contractor     of         education comustent mth the research and
the foreign government      or intern­            development nusaion and objectives of the
ational organization.                             facility, including activities t~t   incmaae
                                                  the licenstng potential of other inventions
   (e) If the funding agreement       in­         of the facility. If the balance exceeds five
volves performance    over an extended            percent. 75 percent of the excets above five
Period of time, such as the typical               percent shall be paid by the contractor to
funding agreement for the operation               the Wasury of the United States and the
of a government-owned      facility, the          remaining 25 percent shall be used by the
following language maY also be added:             contnzcfar only for the same purposes sa de=
                                                  scribed above. To the extent it providesthe
   The tzg~     reserves the right to urdlater­
ally amend thjs findtng agnwment to iden­         most effective technology transfer. the li­
tify specific treatiesor international agree­     censing of subject inventions shall be ad-
ments entered Into or to be entered inta by       ministered by contractoremplo$weson loca­
the gove~ent       after the effective date of    tion at the facility.
this junding a~          t and effectuate those      (h) If the contract is for the oper­
license or other rights which are necemmry
for the gove~ent       to meet its obligations    ation of a government-owned     facility,
to foreign governmen~ their nationala and         agencies maY add the follo~       at the
international o~ons            under such trea­   end of paragraPkt (f) of the c~use at
ties or international agreementswith re­          3 401.14(a):
spect to subject inventions made after the
date of the amendment.                              (5) The contractor shall establiah and
                                                  matntatn active and effective procedures to
   (f) Agencies may add additional sub-           ensure that subject inventions are promptly
paragraphs to paragraph (f) of the                identified and timely disclosed and shall
clauses at ~401.14 to require the con-            submit a description of the Proceduresta
tractor to do one or more of the fol­             the contnzctinao.tficerso that the contrac&
lowing                                            ing   officer   may    evaluate   and determine
   (1) Provide  a report prior to the             their effectiveness.
close-out of a funding agreement l~t.
irm all subject inventions or stating             5401.6 Exercise of march-in rights.
that there were none.                               (a) The following procedures shall
  (2) Provide, upon request. the filing           govern the exercise of the march-in
date, serial number and title; a copy of          rights of the agencies set forth in 35
the Patent application; and patent                U.S.C. 203 and paragraph (j) of the
number and issue date for any subject             clause at 3401.14.
invention in any country in which the               (b) Whenever an agency receives ilI­
contractor has applied for patenti.               formation that it believes might war-
  (3) Provide    periodic   (but   no   more      rant the exercise of march-in righ@
frequently than annual) listings of all           before initiating anY march-ti P*
subject inventions which were dis­                ceeding, it shall notify the cont~r
ciosed to the agency during the period            in writing of the information and re-
covered by the report.
                                                  quest informal written or oral com­
   (g) If the contract is with a nonprof­         ments from the contractor as We~ *
it organization and is for the operation
of a government-owned, contractor-op­             information relevant to the matter. M
erated facility, the following will be            the absence of any comments from the
substituted for paragraph (k)(3) of the           contractor within 30 days, the ag~cy
clause at $ 401.14(a):                            maY, at its discretion. proceed with the
                                                  procedures below. If a comment E re
  (3 ) After payment of patenting costs, li­      ceived within 30 days, or later if the
censing costs, paymen~ to inventors. and          agency has not initiated the P­
other expenses incidental to the administra­
tion of subject inventions, the balance of        dures below, then the agencY s~
any royalties or income earned and retained       within 60 days after it receives the
by the contractor during any fiscai year on       comment. either initiate the P­
subject inventions under this or any succes­      dures below or notify the cont~mr’
sor contract containing the same require­         in writing, that it will not Pursue




                                           A-9

Dapartmont of Commwca                                                              ~ 401.6

march-in rights on the basis of the               ny or evidence relating to the utiliza­
available information.                            tion or efforts at obtaining utilization
  (c) A march-in     proceeding shall be          that are being made by the contractor,
initiated by the issuance of a written            its assignee, or licensees shall be closed
notice by the agency to the contractor            to the public. including potential li­
and its assignee or exclusive licensee,           censees. In accordance with 35 U.S.C.
as applicable and if known to the                 202(c)(5), agencies shall not disclose
agency, stating that the agency is con­           anY such information obtained during
sidering the exercise of march-in                 a march-in proceeding to persons out-
rights. The notice shall state the rea­           side the government except when such
sons for the proposed march-in in                 release is authorized by the contractor
terms sufficient to Put the contractor            (assignee or licensee).
on notice of the facts upon which the                (f) The official conducting the fact-
action would be based and shall speci­            finding shall prepare or adopt mtt%n
fy the field or fields of use in which            findings of fact and transmit them to
the agency is considering requiring li­           the head of the agency or designee
censing. The notice shall advise the              promptly after the conclusion of the
contractor (assignee or exclusive li­             fact-finding proceeding along with a
censee) of its right& as set forth in             recommended determination. A COPY
this section and in anY supplemental              of the findings of fact shall be sent to
agency regulations. The determination             the contractor (assignee or exclusive
to exercise   march-in rights shall be            licensee) by registered or certified
made by the head of the agency or his             mail. The contractor (assignee or ex­
or her designee.                                  clusive licensee) and agency represent­
  (d) Within 30 days after the receipt            atives will be given 30 days to submit
of the written notice of march-in, the            written arguments to the head of the
contractor (assignee or exclusive li­             agency or designee: and, upon request
censee) may submit in person, in wri­             by the contractor oral arguments will
ting,or through a representative, infor­          be held before the agency head or des­
mation or argument in opposition to               ignee that will make the final determi­
the proposed march-in, including any              nation.
additional specific information which                (g) In cases in which fact-finding has
raises a genuine dispute over the mate-           been conducted, the head of the
rial facts upon which the march-in is             agency or designee shall base his or
based. If the information     presented           her determination on the facts found.
raises a genuine dispute over the mate-           together with any other information
rial facts, the head of the agency or             and written or oral arguments submit­
designee shall undertake      or refer the        ted by the contractor (assignee or ex­
matter to another      official  for fact-        clusive licensee) and agent y represent­
finding.                                          atives, and any other information in
  (e) Fact-f iriding shall be conducted           the administrative record. The consist­
in accordance    with the procedures es­          ency of the exercise of march-in rights
tablished by the agency. Such proce­              with the policy and objectives of 35
dures shall be as informal as practica­           U.S.C. 200 shall also be considered. In
ble and be consistent with principles             csses referred for fact-finding, the
of fundamental fairness. The proce­               head of the agency or designee maY
dures should afford the contractor the            reject only those facts that have been
opportunity to appear with counsel,               found to be cleariy erroneous, but
submit documentary evidence, present              must explicitly state the rejection and
Witnesses and confront such persons               indicate the basis for the contrarY
Ss the agency may present. A tran­                finding. Written notice of the determi­
scribed record shall be made and shall            nation whether march-in rights will be
be available at cost to the contractor            exercised shall be made by the head of
upon request. The requirement     for a           the agency or designee and sent to the
transcribed record may be waived by               contractor (u4signee of exclusive li­
mututi agreement of the contractor                censee ) by certified or registered mail
md the agency. hy       portion of the            within 90 days after the completion of
-h-in      proceeding, including a fact-          fact-finding or 90 days after oral argu­
find~g   he-g     that   involves   test~o.       ments, whichever is later, or the pro-



                                              A-10

                                                          37 CFR Ch. IV (7-l-92        Edition)
ceedings will be deemed to have been               (b) Small business firms that believe
ternunated and thereafter no march-              a nonprofit orgamzation is not meet­
in based on the facts and rew$onsupon            ing its obligations under the clause
which the proceeding was initiated               may report their concerns to the Sec­
may be exercised.                                retary. To the extent deemed appro­
  (h) An agency may, at anY time, ter­           priate, the Secretary will undertake
minate a march-in     proceeding if it is        informal investigation of the concern,
satisfied that it does not wish to exer­         and, if appropriate, enter into discus­
cise march-in rights.                            sions or negotiations with the non-
   (i) The procedures of this part shall         profit organization to the end of im­
also apply to the exercise of march-in
rights against inventors receiving title         proving its efforts in meeting its obli­
to subject inventions  under 35 U.S.C.           gations under the clause. However, in
202(d) and. for that purpose, the term           no event will the Secretary intervene
4”contractor” ss used in this section            in ongoing negotiations or contractor
shall be deemed to include the inven­            decisions concerning the licensing of a
tor.                                             spec~ic     subject     invention.     AU the
   (j ) An agency determination unfa­            above investigations,        discussions,    and
t’orable to the contractor (sssignee or          negotiations    of the Secretary will be in
exclusive licensee) shall be held in             coordination       with     other    interested
abeyance  pending    the exhaustion of           agencies. including       the Small Business
appeaAs or petitions    filed under 35           Administration,      and in the case of a
U.S.C. 203(2).                                   contract for the operation of a gover­
   (k) For purposes of this section the          nment-owned, contractor operated re-
term exclusive licemee includes a par­           search or production facility, the Sec­
tially exclusive licensee.                       retary wiil coordinate with the agency
   (1) Agencies are authorized to issue          responsible for the facilitY Prior to
supplemental procedures not incon­               any discussions or negotiations with
sistent with this part for the conduct           the contractor.
of march-in proceedings.
                                                 401.8  Reporting on utilization of subject
9 JO1.7 Small business   preference.                 inventions.
   (a) Paragraph     (k)(4) of the clauses         (a) Paragraph (h) of the clauses at
at $401.14 Implements         the small busi­
ness preference        requirement     of 35
                                                 $401.14 and its counterpart in the
                                                 clause at Attachment A to OMB CfrCU­
U.S.C.   202(c)(7)(D).     Contractors     are
expected   to use efforts that are rea­
                                                 lar A-124 provides that agencies have
sonable under the circumstances         to at-   the right to receive periodic reports
tract small business        licensees.  They     from the contractor on utilization of
are also expected       to give small busi­      inventiona. Agencies exercising tw
ness firms that meet the standard out-           right should accept such in.formatiom
lined in the clause a preference over            to the extent feasible. in the format
other applicants for licenses. What              that the contractor normally PrePares
constitutes reasonable efforts to at­            it for its own intemai purposes. The
mact small business licensees will vary          prescription of forms should be avoid­
with the circumstances and the                   ed. However. any forms or stan­
nature, duration, and expense of ef­             questionnaires that are adopted by ~
forts needed to bring the invention to           agency for this purpose must coMP@
the market. Paragraph (k)(4) is not in-          with the reciuirements of the PaPer­
tended, for example, to prevent non-             work Reduction Act. Copies sha *
profit organizations   from providing            sent to the Secretary.
larger firms with a right of first refus­          (b) In accordance with 35 U.S.C.
al or other options in inventions that           202(c) (5) and the terms of the clauses
relate to research being supported               at S 401.14, agencies shall not ~~~
under long-term or other arrange­                such information to personS Ou@de
ments with larger companies. Under               the government.     Contractors   -    cOn­
such circumstances it would not be re­           tinue to provide confidential    ~~
sonable to seek and to give a prefer­            to help prevent      inadvertent    rel~
ence to small business licensees.                outside the agency.




                                                 A-II

Dopartmont of Commorco                                                                 g 401.12
~ 401.9 Retention of     rigMs by contractor        (4) A refusal to approve an assign­
    employee inventor.                           ment under paragraph (k)(1) of the
  Agencies which allow an empioYee/              standard   clauses.
inventor of the contractor to retain                (5) A refusal to grant an extension
rights to a subject invention made               of the exclusive license period under”
under a funding agreement with a                 paragraph (k)(2) of the clauses pre-
small business firm or nonprofit orga­           scribed by either OMB Circular A-124
nization contractor, as authorized by            or OMB Bulletin 81-22.
35 U.S.C. 202(d), will impose upon the              (c) Each agency shall establish and
inventor at least those conditions that          publish procedures under which artY
would apply to a small business firm             of the agency actions listed in para-
contractor under paragraphs (d)(1)               graph (b) of this section may be ap­
and (3): (f)(4); (h): (i): and (j) of the        pealed to the head of the agency or
clause at $ 401.14(a).                           designee. Review at this level shall
                                                 consider both the factual and legai
5401.10 Government     assignment     to con-    basis for the actions and its consisten­
    tractor of righti in invention    of gov­    cy with the policy and objectives of 35
    ernment Employee.                            U.S.C. 200-206.
   In any case when a Federal employ­               (d) Appeals procedures established
ee is a co-inventor of any invention             under paragraph (c) of this SeCtiOn
made under a funding agreement with              shall include administrative due Proc­
a small business firm or nonprofit or­           ess procedures and standards for fact-
ganization and the Federal agency em­            finding at least comparable to those
ploying such co-inventor transfers or            set forth in $401.6 (e) through (g)
reassigns the right it has acquired in           whenever there is a dispute as to the
the subject invention from its employ­           factual basis for an agency request for
ee to the contractor as authorized by            a conveyance of title under paragraph
35 U.S.C. 202(e), the assignment will            (d) of the standard clause, including
be made subject to the same condi­               anY dispute u to whether or not an in­
tions as apply to the contractor under           vention is a subject invention.
the patent rights clause of its funding             (e) To the extent that any of the ac­
agreement. Agencies may add addi­                tions described in paragraph (b) of
tional conditions as long as they are            this section are subject to appeal
consistent with 35 U.S.C. 201-206.               under the Contract Dispute Act. the
                                                 procedures under the Act will satisfy
5401.11 Appeals.                                 the requirements of paragraphs (c)
  (a) As used in this section. the term          and (d) of this section.
standani   clause   means    the   clause   at
$401.14  of this part and the clauses            S 401.12  Licensing   of background     patent
previously prescribed by either OMB                  rights to third parties.
Circular A-124 or OMB Bulletin 81-22.              (a) A funding agreement with a
  (b) The agency off icial initially au­         small business firm or a domestic non-
thorized to take any of the following            profit organization will not contain a
actions shall provide the contractor             provision allowing a Federal agency to
with a written statement of the basis            require the licensing to third parties
for his or her action at. the time the           of inventions owned by the contractor
action is taken. including any relevant          that are not subject inventions unless
facts thaL were relied upon in Laking            such provision has been approved by
:he action.                                      the agency head and a written justifi­
   ( 1 ) A refusal to grant an extension         cation has been signed by the agency
under paragraph (c)( 4 ) of the standard         head. Any such provision will clearlY
clauses.                                         state whether the licensing may be re­
   (2) A request for a conveyance        of      quired in connection with the practice
title under paragraph (d) of the stand­          of a subject invention. a specificaUY
ard clauses.                                     identified work object, or both. The
  (3) A refusal to grant a waiver under          agency head may not delegate the au­
paragraph (i) of the standard clauses.           thority to approve such provisions or



                                                 A-12

$401.13                                                       37 CFR Ch. IV (7-1-92      Edition)
tO sign the justification      required for           with embodiments    of the invention. As
such provisions.                                      amended. 35 U.S.C. 202(c J(?) no longer
   (b ) A Federal agency will not require             contains this limitation. The Policy of
the licensing      of third parties under             this subsection should also be followed
any such provision unless the agency                  in connection  with similar    approvals
head determines        that the use of the            that may be required     under Institu­
invention    by others is necessary        for        tional Patent      Agreements,     other
the practice of a subject invention or                patent rights clauses. or waivers that
for the use of a work object of the                   predate Chapter 18 of Title 35, United
funding     agreement      and that such              States Code.
action 1s necessary to achieve practical                (c) The President’s Patent Policy.
application    of the subject invention or            Memorandum of February 18, 1983,
work object. Any such determination                   states that agencies should Protect the
will be on the record after an opportu­               confidentiality of invention disclosure,
nity for an agency hearing. The con-                  patent applications. and utilization re-
tractor shall be given prompt notifica­               ports required in performance or in
tion of the determination       by certified          consequence of awards to the extent
or registered      mail. Any action com­              permitted by 35 U.S.C. 205 or other
menced for judicial review of such de-                applicable laws. The following require­
termination      shall be brought     within          ments should be followed for funding
sixty days after notification       of such           agreements covered by and predating
determination.                                        this part 401.
                                                        (1) To the extent authorized by 35
5401.13    Administration    of patent    righta      U.S.C. 205, agencies shall not disclose
    clauses.                                          to third parties pursuant to requests
   (a) In the event a subject invention               under the Freedom of Information Act
is made under funding agreements               of     (FOIA) anY information disclosing a
more than one agency, at the request                  subject   invention   for a reasonable
of the contractor or on their own initi­              time in order for a patent application
ative the agencies shall designate one                to be filed. With respect to subject in­
agency as responsible        for administra­          ventions of contractors that are smalI
tion of the rights of the government           in     business firms or nonprofit organiza­
the invention.                                        tions, a reasonable time shall be the
   (b) Agencies shall promptly           grant,       time during which an initial patent ap
uiiiess there is a significant      reason not        plication may be filed under P*
to. a request by a nonprofit          organiza­       graph (c) of the standard clause found
tion under paragraph           (k)(2) of the          at $ 401.14(a) or such other ClaUSe maY
clauses prescribed by either OMB Cir­                 be used in the funding       agreem~~
cular A-124 or OMB Bulletin 81-22 in­                 However, an agency may disclose SU*
asmuch      as 35 U.S.C.       202(c)(7)     has      subject inventions    under the ~-        at
since been amended to eliminate              the      it-s discretion, after a contractor    ti
limitation   on the duration of exclusive             elected not to retain title or after the
licenses.   Similarly,    unless there is a           time in which      the contractor   is re­
significant    reason     not to, agencies            quired to make an election if the @n-
shall promptly approve an assignment                  tractor     has not made     an el~~on
by a nonprofit organization        to an orga­        within that time. SimilarlY, an agen~
nization which has as one of its pri­                 maY honor a FOIA request at MS*
mary functions the management             of in­      cretion if it finds that the same ~or.
ventions when a request for approval                  mation has previously been pub~~
has been       necessitated     under     para-       by the inventor, contractor, or other-
graph (k)(1) of the clauses prescribed                wise. If the agency plans to ffle ‘x
by either      OMB Circular A-124 or                  when the contractor has not elmti
OMB Bulletin 81-22 because the                        title. it may, of course. cont~ue m
patent management organization is                     avail itself of the authoritY of 35
engaged in or holds a substantial in­                 U.S.C. 205.
terest in other organizations engaged                    (2) In accordance with 35 U.S.C. ~“
in the mam.famureor sale of products                  agencies shall nOL disclose or relz
or the use of processes that might uti­               fOr a period of 18 mont~        from ‘e
lize the invention or be in competition               filing date of the appi.ication @ m




                                                   A-13

D~partmont      of Commorce                                                              $401.14

parties pursuant to requests under the              months from date of its receipt of the
Freedom of Information          Act or other-       report or submission   or. if earlier.
wise copies of any document which the               until the contractor      has filed an initiai
agency     obtained     under    this clause        patent      application.      Agencies,      of
which is part of an application              for    course, retain the discretion        to delay
patent    with     the U.S. Patent          and     publication    for additional      periods of
Trademark        Office    or any       foreign     time.
patent office filed by the contractor                  (5) Nothing     in this para=aph      is in-
(or its assignees. licensees. or empioy ­           tended to limit the authority         of agen­
ees ) on a subject invention         to which       cies provided     in 35 U.S.C. 205 in cir­
the contractor       has elected     to retain      cumstances     not specifically     described
title. This prohibition      does not extend        in this paragraph.
to disclosure       to other     government
agencies or contractors       of government         5401.14 Standard patent rights clausea.
agencies under an obligation          to main­         (a) The    following is the standard
tain such information       in confidence.          patent rights clause to be used as spec­
   (3) A number of agencies have poli­              ified in $ 401.3(a).
cies to encourage public dissemination
of the results of work supported              by     Patent Rights   (Small Business Finns and
the agency through publication in gov­                        Nonprofit  Organtsationa)
ernment or other publications          of tech­                      (a) Def Initiona
nical reports of contractors        or others.
                                                      (I) fnvention   means anY invention or d~­
In recognition       of the fact that such
                                                    covery which is or may be patentable or
publication.    if it included descriptions         otherwise protectable under Title 35 of the
of a subject       invention    could create        United States Code. or anY novei VSrietY of
bars to obtaining patent protection.           it   plant which is or may be protected under
is the po!icy ef the executive          branch      the Plant Variety Protection Act (7 U.S.C.
that agencies will not include in such              2321 et seq.).
publication     programs copies of disclo­            (2) Subject invention means any invention
sures of inventions submitted by small              of the contractor  conceived or first sctuaUY
business firms or nonprofit           organiza­     reduced to practice in the performance of
                                                    work under this contrac~ provided that in
tions,
 pursuant to paragraph (c) of the            the caseof a varietyof plant.the dateof de­
standard     clause found at $ 401.14(a),           termination(ss defined in section 41(d) of
except that under the same circum­                  the Plant Variety Protection Act. 7 U.S.C.
stances under which agencies are au­                2401(d)) must also occur during the period
thorized to release such information                of contract performance.
pursuant to FOIA requests under                        (3) Practical Application    means to mariu­
paragraph (c)( 1) of this section. agen­            facture in the c-    of a composition or prod­
cies may publish such disclosures.                  uct, to practice in the case of a process or
                                                    method. or to operate in the c=e of a ma-
  (4) Nothing in this parawaph         is in-       chine or system. and. in each c=e. under
tended to Rrechlde agencies from in­                such conditions as to establish that the in­
cluding in the publication activities de-           vention is being utilized and that its bene­
scribed in the first sentence       of para-        fits are. to the extent permitted by law or
graph (c)( 3). the publication of materi­           government regulations. available to the
als describing    a subject invention      to       public on reasonable terms.
the extent such materials were provid­                 (4) Made when used in relation to any In­
ed as part of a technical         report or         vention means the conception or first actual
                                                    reduction to practice of such invention.
other submission      of the contractor                (5) Small Business      Finn means a small
which were submitted         independently          business concern as defined at section 2 of
of the requirements        of the patent            Pub. L. 85-536 (15 U.S.C. 632) and imple­
rights provisions of the contract. How-             menting regulations of the Administrator of
ever, if a small business firm or non-              the Small Busu’iess Admmistratlon. For the
Profit organization   notifies the agency           purpose of this ciause. the size standards for
that a   particular report or OtherSub.             small business concerns revolved in gover­
mission contains a disclosure of a sub-             nmentprocurement and subcontracting at 13
Iect invention to which it has elected              CFR 121.3-8 and 13 CFR 121.3-12, respec­
                                                    uvely, wdl be used.
title or may elect. title, the agency                  (6) Nonprolit Organzsatlon mew a Uni­
sh~l use reasonable efforts to restrict             versity or other mstitutlon of higher educa­
lt,.s publication of the material for six           tion or an orgamzmon           of the type de-




                                                    A-14

~ 401.14                                                       37 CFR Ch. IV (7-l-92        Edition)
scribed in section 501(c)(3) of the Internal          tothe end of anY statutorY Petiod wherein
Revenue Code of 1954 (26 U.S.C. 501(c) and            valid patent Protection can be obtained in
exempt from taxation under seCtlOn 501(a)             the United States after a Publication on
of the Internal Revenue Code (25 U.S.C.               sale, or public use. The contmctor uWI file
501(a) ) or any nonprofit scientific or educa­        patent applications in additional countries
tional organisation qualified under a state           or international patent offices within either
nonprofit organisation statute.                       ten months of the corresponding initial
                                                      patent application or six months from the
      (b) Allocation of Principal Rights
                                                      date penmssion is granted W the Commis­
  The Contractor      may retain the entire           sioner of Patents and Tradernari=to file
right. title, and interest throughout the             foreign patent applications where such
world to each subject invention subject to            filing has been prohibited by a Secrecy
the provisions of this clause and 35 U.S.C.           Order.
203. With respect to any subject invention               (4) Requests for extension of the time for
in which the Contractor      retaina title, the       disclosure. election. and filing under sub-
Federal government shall have a nonexclu­             paragraphs   (1), (2). and (3) maY. at the dis­
sive. nontransferable, irrevocable. paid-up li­       cretion of the agencv, be granted.
cense to practice or have practiced for or on
behalf of the United States the subject in­           (d) Conditions When the Government        MaY
vention throughout the world.                                        Obtain Title
(c)	 Invention Disclosure, Election of Title            The contractor will convey to the Federaf
     and Filing of Patent Application by Con-         agencw upon written reuuest. title to any
    tractor                                           subjectinvention—
  (1) The contufor      will disclose each sub­         (1) If the contractor fails to disclose or
ject invention to the Federai Amncv within            elect title to the subject inventionwithin
two monthsafter the inventordiscloses it in           the times specified in (c). above, or elects
vmiting to contnzctor persomel responsible            not to retain title$providedthat the amncw
forpatent matters.The disclosure to the               maYonly request title within 60 days after
agency shall be in the form of a written              learningof the failure of the contractorto
report and shall identify the contract under          dischse or elect within the specified thnea.
which the invention was made and the                     (2) In those countries in which the con-
inventor@). It shall be sufficiently complete         tractor fails to file patent applications
in technical detail to convey a clear under-          within the times specified in (c) abmm Pro­
standing to the extent known at the time of           vided. however. that if the contractor     haa
the disclosure. of the nature, purpose, oper­         filed a patent applicationin a country~~r
ation. and the physical, chemical. biological         the times specified in (c) above. but prior to
or electrical characteristics of the invention.       its receipt of the written request of the Fed­
The disdosure shall also identify anY publi­          eral amncv, the contractor shall ~nt~ue      ~
cation, on sale or public use of the invention        retain title in that country.
and whether a manuscript describing the in­              (3) In anY country m which the cont?ucfor
vention has been submitted for publkation             decides not to continue the prosecution of
and. M so. whether it has been accepted for           anY application for. to pay the maintenance
publication at the time of disclosure. In ad­         fees on. or defend in reexamination or oP*
dition. after disclosure to the agency, the           sition proceeding on. a patent on a sublect
Contractor    will promptly notify the agenq          invention.
of the acceptance of any manuscript de-
scribing the invention for publication or of            (e) Minimum Rights to ContnuXor and
any on sale or public use planned by the               Protection of the Contractor Right to Pile
contractor.
  (2) The Contractor will elect       in writing         (1) The contractor     will retain a nonexclu­
whether or not to retain title to any such in­        sive royalty-free license throughout the
vention by notifying the Federal agency               world in each subject invention to which
within two years of discluure to the Federal          the Government        obtains title. excePt K the
agenm. However. in any csge where publica­            contractor fails to disclose the invention
tion. on sale or public use has initiated the         within the times specified in (c), above. The
one year statutory period wherein valid               contractor’s    license extends to its domti
patent protection can still be obtained in            subsidiary and affiliates, if anY. tith~ the
the United States. the period for election of         COrpO17W3    structure Of which the COntti@
title may be shortened by the agencv to a             is a partY and includes the right to et
date that is no more than 60 days prior to            sublicenses of the same scope to the ex~t
the end of the statutory period.                      the con&actor w= legally obligated W do SO
   (3) The contractor      will file its initial      at the tune the contract was awarded. The
patent application on a subject invention to          license E transferable only wnh the aPPmv”
which it elects to retain titIe within one            al of the Fe&rat agencv except when ~
year after election of title or. if earlier. prior    ferred to the sucesor of that P-Y of ‘e




                                                     A-15

DopaWmomtof Commuco                                                                         g 401.14

contractor’s   business to which the invention         should require, as a minimum. the informa­
pertains.                                              tionrequired by (c)(1), above. The con&rac­
   (2) The contractor’s domestic license maY           tor shall instruct such emPloYees through
be revokedor modified by the junding Fed­              employee agreements or other suitable edu­
erai agenq      to the    extent n~           to       cational Prcwrama on the ~PO~ce      of re-
achieve expeditious practical application of           porting inventions m sufficient the to
the subject invention pursuant to an appli­            permit the filing of Pawnt aPPM=tions
cation for an exclusivelicensesubmitted in             prior to U.S. or foreimt statutory bars.
accordance with applicable provisions at 37              (3) The contractor will notify the Federat
CFR Part 404 and agency licensing re@a­                agencyof any decisions not to continue the
tions(ifany).‘l%is      license will not be re­        prosecution of a patent application      pay
voked in that field of use or the geotrraphi”          maintermnce fees, or defend in a reexamina­
cal areas in which the contractor            has       tion or opposition Proce*g    on a pa=~ ~
achieved practical application and continues           any country, not 1= th~ t~y             *Ys
to make the benefits of the invention rea­             before the expiration of the response period
sonably accessible to the public. The license          required by the relevant PaWnt office.
in anY foreign country may be revoked or                 (4) The contractor       agrees   to   include.
modified at the discretion of the hmdin9               within the specification       of anY United
Federal amncv to the extent the contmctor,
itslicensees. or the domestic subsidiaries or          States patent applications and anY patent
aff iliatea have failed to achieve practical ap­       issuing thereon coverine a sublect ~ven~om
plication in that foreign country.                     the following statement.       “~      ~ven~on
                                                       was made with government          SUPPOrt under
   (3) Before revocation or modification of
the license, the funding Federai agency will           (identify the contract) awarded by @e!MifY
furrush the contnsdcw a written notice of              the Federal agency). The government hsa
itsintention W revoke or modify the llcense,           ce~      rights in the invention.”
and the contractor will be allowed thirtY                             (g) Subcon­
days (or such other tkne as may be author­
ized by the funding Fe&ral agency for good                (1) The contractor will include this clause.
cause shown by the contractor)        after the        suitably modified to identifY the P_ies. in
notice w show cause why the license should             aIl subcontracts. regardless    of tier, for ex­
not be revoked or modified. The contractor             perimental. developmental or research work
has the right to appeal, in accordance with            to be performed by a small business firm or
applicable regulationa in 37 CFR Part 404              domestic nonprofit organization. The sub-
and agency regulations (if any ) concerning            contractor will retain ail rights provided for
the licensing of Government-owned inven­               the contractor    in this clause. md the con-
tions.   any decision concerning the revoca­           tractor will not. = Part of the conside~tion
 tIon or modification of the license.                  for awarding the subcontract. obmin righw
        (f) ContractorAction to Protect the            in the subcontractor’s subject inventions.
             Government’s Interest                        (2) The contractor wiU include in all other
                                                       subcontracts. regardless of tier. for experi­
   ( 1) The contractor agrees to execute or to         mental developmental or research work the
have executed and promptly deliver co the              patent rights clause required bY (cite sec­
Federal agencv all instruments necessary to            tion 01 agencv impiem4rntin9 regrdatwns       or
(i) es~blish or COnfirm     the rights the Gov­         FAR).
ernment has throughout the world in those                (3) In the c~e of subcontracts.  at anY tier.
subject inventions to which the contractor              when the prime award with the Federal
eiects to retain title. and (ii) convey title to        agencY w= a contract (but not a grant or
the Federal agency when requested under                 cooperative agreement ). the aa?ncv. subcon­
paragraph (d) above and to enable the gov­              tractor, and the contractor agree that the
ernment      to obtain patent protection                mutual obligations of the parties created by
throughout the world in that subject inven­             this clause constitute a contract between
uon.
                                                        the subcontractor and the Federal agencY
  (2) The contractor    agrees to require, by           with respect to the matters covered by the
umtten agreement. its employees. other                  clause: provided, however, that nothing in
:han clerical and nontechnical employees,               this paragraph is intended to confer anY Ju­
:0 disclose promptly in writing to peraomel             risdiction under the Contract   Disputes Act
:dentified as responsible for the administra­           inconnection with proceedings under para-
:lon of patent matters and in a format sug­
gested by the contractor each subject inven­            graph (j) of this clause.
tion made under contract in order that the                 (h) Reporting on Utilization of Subject
contractor  can comply with the disclosure                               Inventions
Provmons    of paragraph (c), above, and to
execute all papers necessary to file patent               The Contractor agrees to submit on re-
applications      on SUbJeCt [nVentlOIYS ancf to es­    west   periodic reports no more frettuently
tablish   the    government’s   rights  m the sub­      thanannually on the utilization of a subject
 :ect mvenuons.          This   disclosure   format     invention or on efforts aL ob~g         such




                                                       A-16

$401.14                                                       37 CFR ChOIv (7-l-92 q)
utilization that are being made by the con-      ably satisfied   by the contractor,~     ~
tractor or its licensees or ~ignees. Such re-    their licensees
ports    shall fnclude information regarding       (3) Such action IS ne@saary @!neet*
the status of developmenL date of first com­     quirements for public use specified by ~
merical sale or use. gross royalties received    eral regulations    and such requirem~~ ~
by the contractor. and such other data and       not reasonably  sawfied  by the cone,
information as the agency may reasonably         esmgnee or li ~       or
specify. The contmctor also agrees m pro-          (4) Such setion IS necesmry because ~.
vide additional reports M maY be requested       agreement recnured by Paragmp h (i) of u
by    the   ag~     in connection with anY       clause has not been obtatnedor waived~
march-in proceeding undertaken by the            because a licensee of the exclusive right @
agenm in accordance with P arasraph (j) of       use or sell anY subject invention in ~
this clause. As required by 35 U.S.C.            United States IS m breach of such ~
202(c)(5). the agency agrees it will not dis­    ment.
close such information to persons outside
the government without permission of the           (k) Special Provisions fOr Contnzcf# w~
contractor.                                                  Nonprofit Organizations
                                                   If the constructoris a nonprofit o~
  (i)Preference for United States Xndustry       tion. it agrees thau
   Notwithstanding anY other provision of          (1) Rights to a subject invention In the
this clause. the contractor agreesthat nei­      United States may not be =fwEned‘    Wuhout
ther it nor anY -ee        will grant to anY     the approval of the Federai agencu, except
person the exclusive right to use or sell any    where such mutignment iamadetaan~
subject   inventiona  in the United States       ntition which has es one of its Prlmavy
unless such person agrees that anY Products      functions the manumnent of inventions.
embodying the subject invention or pro­          provided that such assignee will be subject
duced through the use of the subject inven­      to the same provisions es the contnzeton
tion will be manufactured subatantiaIly in         (2) The contmctor willshare royaltiesml.
the United States. However. in indhriduai        lected on a subject invention with the in-
cases. the requirement for such an agree­        tor, including Federal employee xm-lnven=
ment may be waived by the Federal agency         tore (when the agency deemsit appmp-)
upon a showing by the contractor or lW as­       whenthe subject invention is assigned in *
signee that reasonable but unsuccessful ef­      cordance with 35 U.S.C. 202(e) and 37 (X’R
forts have been made tQ grant licenses on        401.10:
similar terms to potential licensees that          (3) The baianeeof anYroyaltiesor income
would be likely to manufacture substantiai­      earned by the contractor  with respect to
lY in the UnKed States or that under the         subject     inventiona. after payment of ex­
circumstances domestic manufacture is not        penses (including payments to inventom) In.
commericaily feasible.                           cidentiai to the administration of subject bl­
                                                 ventions. will be utilized for the support of
              (j) March-in Rights                scientific research or educatioxx and
                                                    (4) It will make efforts that are reasonable
   The contnzctor agrees that with respect to    under the circumstances to attract liceneesS
any subject invention in which it has ac­        of subject invention that are small buab.leU
quired title. the FederaJ agency has the         firma and that it will give a prefere~ ~ a
right in accordance with the procedures in       small business firm when licensing a suM@
37 CFR 401.6 and any supplemental regula­        invention if the contntctor      determin=   W
tions of the agen~ to require the cont~c­        the smaU business firm has a plan or P*
tor, an assignee or exclusive licensee of a      Posai fOr marketing the iIWentiOn whkh. if
subject invention to grant a nonexclusive,       executed. is equtiy u likely to brim the~=
partially exclusive, or exclusive license in     vention to practicai application SS 81WP-
any field of use to a responsible applicant or   or Prowaals       from applican~ that are IIOt
applicants. upon terms that are reasonable       small business firms provided. that the ~-
under the circumstances, and if the contrac­     tractor is also satisfied that the smti b~­
tor, arsignee, or exclusive licensee refuses     nesa firm has the capability and reao~
such a request the FederaJ agency has the        tocarryout its Pian or pro-.             The d~.
right to grant such a license itself if the      sion whether to give a preference in UU
Fedeml agency determines that:                   SPeClfiCme will be at the discretion Of the
   ( 1) Such action is necessary because the     contractor.     However, the contnzcbr agrees
contractor    or assignee haa not taken. or ia   that the Secretary may review the -~
not expected to take within a reasonable         tor’s licensing progmm and dec~iona ~
time, effective steps to achieve practical ap­   ing small     business applicants. and the ‘.
plication of the subject invermon in such        tractor will negotiate changes       @ i~ ~=m
field of use.                                    inig   pollcies.   procedures.   or   P~~=   ‘~
   (2) Such action is n~          to allevtate   the Secretary when the Secre-’s       ‘m
heaith or safety needs which are not reason-     discloses that the contmetor could tie ~“




                                         A-17

Dopartmont of Cammorce                                                                                     $ 401.1s

sonable  steps to implement more               effectively         resolution   of the matter.    the invention   w~ll
thereqlremencs of this paragraph                (k)(4).            be subject   to subparagraPh     (c)(1)(B).

            (I) Commurucation                                        ( 3 ) Paragraph (k)(3)         of the clause
  [Compiete According to Instructions                        at    will be modified      =          prescribed  at
401.5(b))                                                          $ 4ol.5(g).
   (b) When the Department           of Energy                     5401.15      Deferred determinations.
( DOE) determines        to use alternative
                                                                      (a) This section applies to requests
provisions      under     $ 401.3(a)(4),     the
standard clause at $ 401.14(a), of this                            for greater rights in subject inventions
section. shall be used with the follow­                            made by contractors           when deferred
ing modifications       unless a substitute                        determination     provisions       were inc~ud­
clause is drafted by DOE:                                          ed in the funding agreement             because
   ( 1 ) The title of the clause shall be                          one of the exceptions        at $ 401.3(a) was
changed       to read as follows:        Patent                    applied. except that the Department
Rights     to Nonprofit   DOE Facditu OP­                          of Energy is authorized          to process de­
erators                                                            ferred determinations        either in accord­
   (2) Add an “(A)” after “(l)” in para-                           ance with its waiver regulations         or this
graph (c )( 1) and add subparagraphs                               section. A contractor       requesting    great­
1B) and (C) to paragraph (c)(1) as fol­                            er rights should include           with its re-
lows:                                                              quest information       on its plans and in­
                                                                   tentions    to bring the invention             to
  (B ) If the subject invention occurred                           practical   application.      Within    90 days
.mder activities funded by the naval nuclear                       after receiving a request and support­
sronulsion or weapons related programs of
LIOE, then the provisiona of this subpara­                         ing information,     or sooner if a statuto­
graph     (c)( 1)(B)      will apply    in lleU of Para-           ry bar to patenting         is imminent,     the
graphs (c)(2)        and (3). In such cases the con-               agency should seek to make a determi­
tractor    agrees to assign the government                the      nation. In any event, if a bar to pat­
+ntme      right,      title.   and    interest      thereto       enting is imminent,        unless the agency
  hroughout        the world in and to the subject                 plans to file on its own+ it shall author­
 nvention       except      to the extent      that rights
                                                                   ize the contractor       to file a patent ap­
 .re retained        by the contractor           through     a
 :reater    rights    determination       or under para­
                                                                   plication   pending a determination           by
 :raph (e), below. The contractor.                or an em­         the agency. Such a filing sh~l normal­
 ]loyee-inventor,          with  authorization        of the       ly be at the contractor’s         own risk and
 ontractor.      may submit a request for greater                   expense. However. if the agency subse­
‘!ghts    at the time the invention             1s disclosed        quently refuses to allow the contractor
 :? within a reasonable          time thereafter.       DOE         to retain title and elects to proceed
 J:I1l processsuch a request in accordance                         with the patent application under gov­
.vlth procedures          at 37 (JF’R 401.15. Each de­
                                                                   ernment ownership, it shall reimburse
:ermmation         of greater     rights will be subject
                                                                   the contractor for the cost of PrePar”
‘a   Daraf3’raPhs
              (h)-(k)
   of thisciauseand                          ing and filing the patent application.
such additionalconditions.   ifany, deemed
[o   be     appropriate      by   the    Department          of      (b) If the circumstances  of concerns
Energy.                                                            which     originally     led the agency       to
 (C ) At the time an invention              is disclosed    in     invoke an exception           under $ 401.3(a)
  ccordance      with     (c)(1)(A)     above.    or within        are not applicable         to the actual sub­
  !3 days     thereafter.         the    contractor       will
                                                                   ject invention       or are no longer valid
    Jbmit a written      statement       M to whether       or
                                                                   because      of subsequent         events.  the
 ‘-jot the mventlon           occurred     under    a naval
 :’.uclear propulsion         or weapons-related         pro­
                                                                   agency should allow the contractor            to
 <ram of the Department               of Energy. If this           retain title to the invention            on the
 statement     IS not filed w]thin         this time. sub-         same conditions        as would have applied
 paragraph       (c)( 1 )(B)     will  apply    ln lieu of         if the standard clause at $ 401.14(a)
 paragraphs       (c)(2) and (3 ). The contractor                  had been used originally,         unlessithas

 .tatement     will be deemed          conclusive     uniess.      been licensed.
   ‘;lthln 60 days thereafter.           the Contracting
                                                                      (c) If paragraph ( b ) is not applicable
 ‘3ff1cer disagrees        m umtmg,         m whichcsse
 ‘ne determmaclon            of the Concractlng         Off!-      the agency shall make its determina­
 “W WL1l be deemed conclusive                   unless    the
                                                                   tion based on an assessmentwhether
  !Ontraccor    files a cialm under the ContracL                    ic~own plans regarding           the invention
  ~]sputes   Act wlthln         6(J days after the Con­            will better promote    the policies            and
  :ractmg    Officer’s        determulataon.        Pending        objectives  of 35 U.S.C. 200 than              ~111




                                                                  A-18

~ 401.16                                             37 CFR Ch. IV (7-1-92 Edition)

contractor

          ownershipof the invention.

Moreover. ifthe agency ISconcerned

only about specificuses or applica­

tionsof the invention,

                      itshallconsider

leavingtitlein the contractor
with ad­

ditionalconditionsimposed upon the

contractor’s
use of the inventionfor

such applications
 or with expanded

government licenserightsm such ap­

plications.

  (d)A determination  not to allowthe
contractorto retaintitleto a subject
inventionor to restrictor conditionits

titlewith conditionsdifferingfrom

those in the clause at $401.14(a).

unless made by the head of the

agency,shallbe appealableby thecon­

tractorto an agency official
at a level

above the personwho made the deter­

mmation. This appealshallbe subject

to the proceduresapplicableto aP-

pealsunder $401.11of thispart.

?+401.16 Submissions and inquiries.
   All submissions     or inqumes     should
be directed     to Federal      Technology
Management        Policy    Division,    tele­
phone    number      202-377 -0659., Room
H4837, U.S. Department       of Commerce,
Washington,     DC 20230.




                                             A-19

                               APPENDIX                     B


                         Flow of Invention      Reporting    Process



    Grant is awarded. It is at this stage that NIH would have to make the decision if
    an exceptional circumstance exists that warrants an alternate provision to automatic
    retention of rights by grantee.

                                               I

    If NIH asserts exceptional circumstance, than NIH must inform the grant and write

    an analysis of why the alternate provision will better achieve the objective set forth

    by Bayh-Dole. A copy of this must be sent to the Secretary of Commerce within 30

    days after the award of the funding agreement. The Chief Counsel of Small

    Business Administration would also be sent a copy if the award is to a small

    business.


    If the Secretary believes that the determination is contrary to the policies and

    objectives of the regulation governing invention rights for grantees, the Secretary

    would advise NIH and recommend corrective actions.


                                               I

    NIH sends “welcome wagon” letter to new grantee advising them of their
    responsibilities citing 37 CFR 401. NIH also provides grantee with PHS Grants
    Policy Statement and weekly copies of the NIH Guide for Grants and Contracts
    that periodically discusses g~ant~es invention reporting responsibilities.                 II

                                               I

    If an invention occurs during grant, the grantee would disclose it in writing to DEIR
    within 2 months after inventor discloses to grantee personnel responsible for patent
    matters.

                                               I

~   When NIH receives the written disclosure, the paper     COpy is   filed by grantee name.

                                               I


                                             B-1

     Grantee elects in writing to retain or release rights to invention within two years of
     disclosure.

     If grantee declines rights but requests that rights be waived to inventor, the case is
     sent to the Licensing Branch in the Office of Technology Transfer. The file is sent
     to the Office of Technology transfer who in consultation with the appropriate
     Institute determines whether the government wishes to retain rights or waive rights
     to the inventor. If rights are assigned to the inventor, they must follow the
     condition set forth in the regulations.

     If the grantee declines rights and does not indicate whether the inventor request
     rights. The disclosure is put in a pending file for one year to see if inventor
     petitions for rights. If the inventor fails to file within year, case is discarded.

     If after two years, no additional information is sent concerning election, the
     disclosure is abandoned and no entry is made in data base.

                                                I

! DEIR would open computer record when election is received and input information
     received.

                                                 I

1,



     Within one year of electing title, grantee must file patent application. Grantee send
     the patent application and the standard U. S.government non-exclusive license to
     DEIR.

     If the grantee files a patent application and then abandons it but requests that
     rights be waived to the inventor, the case is sent to the Licensing Branch in the
     Office of Technology Transfer. The file is sent to the Office of Technology transfer
     who in consultation with the appropriate Institute determines whether the
     government will retain rights or waive rights to the inventor.

     If the grantee files a patent application and then abandons and does not indicate
     the inventor is interested, the case is put in a pending file for one year to see if
     inventor petitions for rights. If the inventor fails to file within year, case is
     discarded.



                                                I


                                              B-2

‘iDEIR adds patent application and license to paper file and inputs information in
I computer file. DEIR checks to see if the government support clause is in the
  patent application. If the information sent be grantee is incomplete, notice will be
  sent to university asking for additional information.

                                                  I

I   Grantee begins to send annual utilization     reports   to NIH identifying    their
    commercialize efforts.


                                                  I


; DEIR would file these in paper copy and update            previous   fields if information   was
‘ missing or incorrect.


                                                  I

    Grantee sends patent when its issues. NIH checks for government funding clause.                  I

                                                  I

    During this process, if grantee indicates in a progress report or on the application
    for continuing grants that inventions have been made, DEIR will check to see if a
    case file has been set up and if information in the file is complete and matches the
    information from the report or application. If the information is no complete, a
    letter is sent to grantee requesting information.

                                                  I

   Following the expiration or termination of grant, a Final Invention Statement and
   Certification (Form HHS 568) must be sent to NIH certifying that no inventions
II were   involved or listing the inventions. NIH reviews the form to see if a case file
   has been set up and if information in the file is complete and matches the
   information from the report or application. If the information is not complete, a
   letter is sent to grantee requesting information.

                                                  I

    After 17 years, when the patent expires the files will be purged unless legal actions
    were involved.



                                                B-3

               APPENDIX                  C




NIH Sample   Forms   for Licensing   and Invention   Reporting




                             c-1
                                   SUBJECT INVENTION UTILIZATION                                        REPORT
                                  per        authority              of   35 U.S.C.             S202(C)         (5)
                             Period               Ending                                      (Month,          Year)
                       (PRIVILEGED                  AND CONFIDENTIAL                    per        5 U.S.C.             S552)


                                                                IDENTIFICATION
 1.   Federal          Agency           National                 Institutes         of        Health
 2.   Grant/contract                   No.(s)
 3.   Date      Disclosed               to        NIH
 4.   Date      of     Election               to Retain             Rights
 5.   Invention            Title


 6.   Case/file             No.    of         Reporting             Entity
 7.   Inventor(s)




                                                                 FILXNG STATUS
 8.   U.S.      Pat.        Appln.            No.                                             9.    Filing              Date
10. U.S.        Patent           No.                                                      11.       Issue           Date
12.   Countries             where            foreign            patent        applications               are        pending       or   where
       patents             have     issued


                                                         STATUS OF DEVELOPMENT
13.   Date      of      first       commercial                   sale     or    use,      if       any
14.   Gross          royalties               received            during        report          period          $
15.   Number          of    licenses                or     related        agreements               in    effect
16.   If      not     licensed               or     under        development,             describe                 a)    action      taken     to
      obtain          utilization                   or     b)    comment         on likelihood                     of    licensing       or
      practical             application




17.   Reporting             entity             (Grantee            institution            or       assignee)


18.   Signed                                                                                                            Date
      Title




                                                                          c-2
                                LICENSE        TO THE UNITED              STATES     GOVERNMENT




Invention          Title:


Inventors          ) :


Patent         or Application                 serial      Ilo.


U.S.     ~iling/Issue                 Date:


Grant/Contract                  Identification              Number:

Grantee/Contractor                     File      #:


Foreign         Applications              filed/intended                 in   (countries):



The  invention      identified          above    is    a Subject      Invention     under
35 U.S.C.      200,   et    seq.,     and the       Standard     Patent      Rights  clause    at
37 CFR 401.14 or FAR 52.227-11, which are included among the terms Of
the above-identified              grant/contract          award from the Public           Health  Ser­
vice/National                Institutes           of     Health.          This     document       is    confirmatory
of:

          1.	 The nonexclusive,       nontransferable,       irrevocable,      paid-up
              license    granted    to the Federal      Government      in the
              invention     described    in the patent      application      and in any
              and all    divisions,    continuations,       and continuations         in
              part,    and in any and all       patents   and re-issues       granted
              thereon;    and

          2. All     other rights     acquired     by the Government   by reason
                of the above    identified      grant/contract   award and the
                laws and regulations        which are applicable     to the award.

The Government                  is    hereby     granted           an    irrevocable          power     to    inspect   and
make copies    of               the    above-identified                  patent      application.




          Signed          thb                      day    of                                           ,19.


          By
                                (Grantee/Contractor                     Official      and Title)

          For
                                                   (Organization)

          At
                                                   (Business            Address)




                                                                   c-3
                                                                                                                                                                                                  ~:-. Ammveo Thm.qn 630:’34
AA                                                                                                                                                                                                            ;*,!B No 0925.0001

                                                                                                                   LEA=          ~FouC!=E                     ONLY.                                                  .*
                      CEPARTMENTOF                  HEALT&      AND      HUMAN         SERVICES
                                         3UBLIC       HEALTH         SERVICE                                       Type                     1-                     Numbar                                                           ,,
                                                                                                                                                                                                                       . . ... .. .
                                                                                                                   FwiewGmup                                        Formerly
                                         GRANT APPLICATION                                                                                                                                                                       .,
     Follow InstructIons caretully. Type In the unshaded sreas oniy.                                          j          (Month,
                                                                                                                   counCwBOSdYear)                                  Date Received
                       Type denstty must be 10 c.p.i.
                                                                                                                                                                                                                            ..,,+..
i TITLE OF PROJECT (Do not exceed 56 typawrrter spaces.)	
                                                                                                                                                                                                                            -..

2a. RESPONSE TO SPECIFIC REQUEST FOR APPLICATIONS OR PROGRAM ANNOUNCEMENT                                                                                       ‘~ NO             c   YES (If “YES, ”StafIS SIWI&-L
          Numbac                                                     Title:                                                                                                                                          Sndma?
2b. TYPE OF GRANT PROGRAM                                                                                                  3.	 PRINCIPAL INVESTIGATOWPROGRAM    DIRECTOR
3a. NAME (Last, first, middk)                                                                                              3b. DEGREE(S)               3c. SOCIAL SECURITY NO.


3d. POSITION TITLE                                                                                                         3e. MAILING ADDRESS (Street, civ, state, zip cede)


3f. DEPARTMENT,                          SERVICE. LABORATORY, OR EQUIVALENT


3g. MAJOR SUBDIVISION


3h.	 TELEPHONE AND FAX (Area cnda, number and exierrsnm)
          TEL:
          FAX:                                                                                                             BITNET/lNTERNET            ADDRESS
4        HUMAN                SUBJECTS      ,, ~=     .	                      IRB                                          5.	   VERTEBRATE ANIMALS                   If “Yes.-                          Sb. AnhmSl ~
                                                                              a~oval         4b. Aaaumrm     et                                                       IACUCaMSW/SIdate                        ~sm.
            4a r---                         exempism       no.	 0s
                                                                —             date               ~            m.          —	       5a. ~
            NO                     YES                                                                                            INOI            \ YES
6.	 DATES OF ENTIRE PROPOSED                                   PRCkJECT                 7, COSTS REQUESTED FOR INITIAL                                      8. COSTS REQUESTED FOR ENTIRE
    PERIOD                                                                                 BUCGET PERIOD                                                       PROPOSED PROJECT PERIOD
 From (MMDOYY)                                    Through    (MMDDYY)                   7a. DirectCasts($)                 7b. TotalCosts($)                8a. DirectCosta($)                 Sb,Total03ets ($)



 9. PERFORMANCE                          SITES (Orgamzations             andaddresses)                                     10. INVENTIONS AND PATENTS (Cor71FMbW
                                                                                                                                                               contrrruakma@cdorI                                     dy)
                                                                                                                                                                                  Previously             Not ~
                                                                                                                                    ND                                            repamad                r-

                                                                                                                           11.NAME          OF APPLICANT ORGANIZATION


                                                                                                                           ADDRESS




                                                                                                                                                                                                                                             I


 12. WPE OF ORGANIZATION                                                                                                   13. ENTITV IDENTIFICATION                  NUMBER                    Congressmmsi
                                                                                                                                                                                                          -
          — PUMIC S@@                                  c     /=d9r’a/             G     state -u ,L& ;                                                                                                                    ‘ ‘- “.=.
          C PrivateNonpfofit                                                                                               14. BIOMEDICAL RESEARCH SUPPORT GRANT CREDIT                                              ,.-:’& +‘           .
          ~ Foq)rofit@anera/)                                 ~       For@it @mW_.                           =. =-         code                  lianMc@m
 15. NAME OF ADMINISTFLATIVE OFFICIAL TO BE NOTIFIED IF AWARlk                                                             l&      NAMEOFOFFKXALSIGNINGFORAPPUCM ORW
                                                                                                        .
                                                                                                       ISMAD6
 TELEPH@IE


 TM-E



                          Y



         “i
                     .!

             .   .

             .-.’
            s%.


 wt-NETrlNTERNEr                    AboREss
                                                .@
 .-       3GINCIPAL              INVESTIGATOR
                                            PRCICRAM DIRECTOR ASSURANCE                  I agree 10 ace,     ,esoon.   SIGNATURE OF PERSON NAMED IN 3a                                  --                    SATE
          : 3 w for the see. !,llc conduct of tPe mo!ect ancitoorov!de the requt red progress reool           a aram I (In m  Per” s:gnature not acceprame I
           s awaraea as a ,es.,1 ot th, s aODllcai 0. W,llful orov, slon of false fntormauon IS acr, ml      ottense (
              S Coae T : e .8 Sec!lon 1001,         am aware mat anv false. mcmrtous or !rauaulent Sratemenl I
          ‘3v m acnml!on.3 C:-er remeales avaf,aDle rD !he(.%vernmem             suD!ecl me lo CIVIIpenalttes unoer
          -+ ?rooram F.3.5 c w Rerned(es AZ: of 1986 (45 CFR 791

     :    Z 5? TIFICA TIC*; AND ACCEPTANCE               I cen,fy lna, ,he s,a~emen,s “ere, n are ,,ue ano COmDIeIe    SIGNATIJRE                      OF PERSC)N NAMED IN :6                                 DATE
          2 .-e Dest 0! ‘v .-awleoge,        ano accem me Obllgatlon 10 comDlv Wtlh Publlc Health Serv!ce Terms I cm mk Per                           s!gnarure nor acceD1aole I
            -z CO.oll,ors     , 2 ;,an! IS awaraea ?.s :ce result of thts a!ml,caf,on A w,dfullv false Cenltlca!,on ‘s
              :. “nal   ol.ens?     J S Caae, T e .3 Secl)On ~001, I am aware mat any false. fIc:)tIOus c,
             :.a L,en! s!aw-e ‘. ‘av       m aaolho- .3 >!ner remea{es av.waole to me Governmem          suqecl Te I
           : : .:, oena, t,es .-cc, !ne P,org ram =,aua CIVII Remea (es Act or 1986 ,45 CFR 79)




                                                                                                                           c-4
                                                                                                                                        Approved   for   USOttYOU@ 6/~_
                                                                                                                                                  OMB No. oS2S-WG1
                                                                                                                                 DHHS   GRANT OR AWARD NO.
                               Department         OF HEALTH AND HUMAN SERVICES

              FINAL       INVENTION              STATEMENT                   AND CERTIFICATION                               i
                                                (FOR GRANT         OR AWARD)

       A.	 We hereby certify that. to the best of our knowledge and belief, al] inventions are listed below which were conceived
           and/or first actually reduced to practice during the course of work under the above-referenced    DHHS grantor award
             for the period
                                                                   through                                                   .
                         ongmal effectore date                                            date of Iermmatlon

        B. INVENTIONS               (Note: If no mventlons          have been made under the grant              or award,   inse~       the word    “NONE”      under
             Title below.)
               NAME OF INVENTOR                                                   TITLE OF INVENTION                                     DATE REPORTED TO DHHS




[Use    contmuatmn sheet If necessary}            I                                                                          I
        C.	 FIRST       SIGNATURE           — The person responsible for the grantor                    award   IS required to    sign (in W. Sign inthe block
              opposite the applicable         type of     fjram
                                                              or       award.
            TYPEOF GRANTOR AWARD                              WHO MUST SIGN (title)              I                                SIGNATURE

                                                   I
                                                        Principal Investigator
Research        Grant
                                                        or Project    Director




Health Sewices           Grant                          Director                                 I

Research        Career Program          Award           Awardee

                                                    [                                            1


All other      types    ~specify)
                                                        Responsible Official

                                                   I                                             I
       D.    SECOND        SIGNATURE            — This block must be signed               by an official   authorized   to sign on behalf of the institution.
TITLE                                                                                                NAME ANO MAILING ADDRESS OF INSTITUTION


                                                                                                 /
lYPED       NAME




SIGNATURE                                                                        DATE


                                                                             1                   1
HFfS 66S (Rev. 9191)
                                                                                         c-5
                                         CONTRACTOR’S CERTIFICATION

                                            (FAR General     Provisions)


CONTACT NUMBER

CONTRACTOR

PRINCIPAL INVESTIGATOR           I
    in accordance     with the terms and conditions of the above contract, I hereby certify that the
    followin     information is true to the best of my knowiedge as it pertains to the repo­
    required II y the General Provisions of the contract.

    1.   PATENT/COPYRIGHT INFRINGEMENT and PATENT RIGHTS:

         a.    Patent/Cocwiqht       Infringement   Report (FAR 52.227-21.

               There was (), was not ( ) a notice of claim of patentor       copyright infringement
               based on the performance of the contract.

               [f answered in the affirmative, please submit one (1) copy of each disclosure
               statement to this office; and one (1) copy to: Extramural Invention Reports Office
               (EIRO), Office of Extramural Programs, NIH, Building 31, Room 5B41, 9000 Rockville
               Pike, Bethesda, Maryland 20892. EIR() telephone number is (301) 402-0850

         b.    Patent Riqhts/invention     Disclosure (FAR 52.227-11}.

               There was (), was not ( ) an invention or discovery made by the Contractor or
               its employees as a result of performance under the contract.

               If answered in the affirmative, please submit one (1) copy of each disclosure
               statement to this office; and one (1) copy to: Extramural Invention Reports Office
               (EIRO), Office of Extramural Programs, NIH, Building 31, Room 5B41, 9000 Rockville
               Pike, Bethesda, Maryland 20892. EIRO telephone number is (301) 402-0850.

    2.   FINAL INVENTORY OF GOVERNMENT              PROPERTY:

         Government    Property was (), was not ( ) purchased or furnished under this contract.

         If answered in the affirmative, using form HHS.S6S, please submit 3 copies of a final
         inventory repoti indicating Government Property in possession of the Contractor or
         subcontractor in accordance with instructions in the DHHS Manual, entitled
         CONTRACTOR’S GUIDE FOR CONTROL OF pROpERTY GOVERNMENT PROPERTY, 1990.



CONTRACTOR BUSINESS
OFFICIAL’S SIGNATURE



 OFFICIAL TITLE                  I


                                                       C-6
NINDS(01=92)
                                  Sample   Database    Record

               Grantee

               Name 1:

               Grant 1:




Grantee:     Institution name

Code:   Institution Code

Name 1,23:      Name ofprincipal      investigators

Grant 1,23:     Grant numbers - sometimes several grants have supported an invention

Patent Title: Title given to invention by grantee

Disclosed:    Disclosure Date

CIP CON DIV Applns:             Coded with Yes, No, Blank - indicates if patent application
                                 has been continued in part, continued, or divided.

Retained Rights: Coded with Yes, No, or Blank - has grantee elected rights

Lead Agency	      If there are grants involved from other agencies, which agency is taking
                  the lead for collecting information


                                                D-1

                 Serial Number:

                 Patent Serial:

              ~Special Note:

                 Licensed:

US License:      Coded with Yes, No, or Blank - has grantee provided the government’s
                 non-exclusive license

Old G code:       If the grant is older than 1985 a different coding system used, this is
                   filled with the old grant code

Support Acknowledged:             Coded with Yes, No, Blank - k the clause about agency
                                  support in the patent application

Case Abandoned:	         Coded with Yes or Blank - has Patent Office rejected or grantee
                         decided not to pursue patent

Serial Numbec        Patent application serial number

Application Date:        Date of filing application with Patent and Trademark Office

Patent Serial:     Serial Number      of patent

Patent Issue Date:        Issue date of patent if successful


Special Note:      Additional information


Licensed:   Code with Yes, No, Blank - if known, has the invention been licensed



                                                  D-2
APPENDIX              E




  Agency   Comments




           E-1
               ,,
                .,,4       ,,
      .-
                                .
.“                                                                                                                       Public Health   Service
                                     DEPARTMENT OF HEALTH &. HUMAN SERVICES	
                       t
‘-$        <
                                                                                                                         Memorandum

                                     .     MN?24     1994
                       Date


                       From         Assistant       Secretary       for       Health


                       Subjea office             of Inspector     General    (OIG)             Draft       Report      “NIH Oversight
                                    of     Extramural     Research    Inventi_onsr”              OEI-03-91-00930

                       To            Inspector
     General,     OS


                                    Attached        are the Public      Health  Service    comments   on the subject
                                    draft      report.      we concur    with the report’s      recommendations.
                                    Our comments         delineate    the actions     that  the National
                                    Institutes         of Health   pqlans to take to implement        them.




                                     Attachment





                                    m
                                    SAIG
                                    PDIG
                                    DIG-M
                                    DIG-III
                                    DX34X
                                    AIG-MP
                                    OGmG
                                    DATE SENT




                                                             k


                                                             i.:

                                                                     v

                                                                          I
                                                                     -.

                                                                     <




                                                                                       ,-         ,.,-
                                                                                       ,.-.,             .,4   :.,,,
        PUBLIC     HEALTH    SERVICE         (PHS 1 COMMENTS ON THE OFFICE               OF
       INSPECTOR  GENERAL (OIG\               DRAFT REPORT “NIH OVERSIGHT                OF
           EXTRAMURAL RESEARCH               INVENTIONS, “ 0EI-03-91-O0930


The    PHS     is in agreement       with      the recommendations         of the   OIG

report.      The i.mplementation        of the recommendations,                however,
must take     into      account   the prerogatives    established              for
grantee    institutions         in the BaYh-Dole   Act (Act),              the rights     of
the public       and the government,        and the competing              demands    for
staff   and administrative           resources.

OIG Recommendation


1.	      The National     Institutes    for Health   (NIH) should  reexamine
         its   current  oversight    role  to determine   if improvements
         could    be made in the monitoring      of grantee compliance
         with Bayh-Dole     requirements.

PHS Comment


We concur.   Under the direction   of its internal Task Force on

the Commercialization   of Intellectual   Property Rights from

Extramural  Research,  the NIH has just taken a major step in

evaluating  its current oversight   role of grantee compliance

under the Bayh-Dole   Act by holding a public forum entitled
“Forum on Sponsored   Research Agreements:   Perspectives~ Outlook
and Policy Development. “ The forum was held on January      25 and
26, 1994.

The purpose of the forum was to solicit                        the views         of an
external panel of experts and the public                      on issues      related       to
research      support     agreements      between     grantees     and industry          in
which NIH funding           was involved.        The meeting       focused       on
certain     provisions       of the Act,      including       the utilization         Of
inventions       arising     from extramural        research,      preference        for
small    business,       and U.S. manufacturing            requirement.

The outside panel questioned      the usefulness     and necessity    of:

requiring   additional   data from grantees,      or of additional

oversight   by NIH, regarding    the commercialization      or

utilization   of inventions;    the preference     for small business;

and the U.S. manufacturing      requirement.      The panel stated that

stringent   guidelines   and reporting    requirements    could have a

detrimental   effect on technology      transfer   and the ultimate

commercialization     of Federally-funded     research.    In fact, the

preliminary   recommendations    of the panel suggest that:

(1) the grantee institutions       rather than the Federal
Government   should be the primary monitors        of compliance   with
the Bayh-Dole    Act provisions    concerning    the utilization   and
preference   for small business,     and (2) NIH should      focus on
providing        educational      and/or       policy   guidance     to    the
institutions          on these    matters.


                                               E-3
                                                                            2


  A. draft     report   on the panel’s     activities
                                                   is currently  being

  reviewed by panel members.          It is expected that this report

  will be finalized        in the next several weeks.    It will then be

  submitted  to the Advisory Committee to the Director, NTH, at

  the next Advisory Committee meeting scheduled for

  June 1, 1994.   The panel’s findings and recommendations,     as
  well as the Task Force’s ongoing work i.n this area, will be
  considered  in NIH’s implementation of recommendations    i.n the

  report.


  OIG Recommendation


  2.        The NIH should (1) add more detailed licensing and

            utilization	 information to its invention data base and
            (2) use the database to track grantees for timely
            compliance .

  PHS Comment


  We concur.   As noted in the OIG report, NIH currently collects
  utilization reports from its grantees even though the Act does
  not specifically require such reports. However, as recognized
  at the iorum held in January, the usefulness of these reports
  for actually tracking compliance with the utilization
  requirement of the Act may be questionable because the
  practical difficulty of actually assessing or utilizing
  information such as performance benc~arks   could require
  extensive staff effort an~ expertise  with little guarantee of
  improved program results.

  Therefore, at this time it is not certain that requiring

  grantees to submit more detailed reports is the most effective

  means ci ensuring compliance with the Act. Nonetheless, NIH
  will     evaluate     the  usefulness of the information   that   i.s
  currently         collected from grantee institutions,
                                                  and consider
  requesting different or additional information, for use in

  monitoring compliance under the Act and for other purposes

  such as illustrating the public benefits derived from Federal

  funding of research.  NIH expects to complete this  evaluation
  in   FY   1994.




     ‘According to a recent licensing survey conducted by the
Association of University Technology Managers, 98 U.S.
universities reported a total of 5,645   invention disclosures;
executed 1,387  licenses and options; and had 1,112 of their
patents issued in fiscal year 1992.    In addition, the su~ey
indicated that these 98 universities,   which represent only a
small fraction of the universities that receive Federal funding,

have over 5,500 active licenses and options.


                                     E-4
                                                                       3




Regardless   of the approach taken concerning   the utilization

reports,   NIH intends to establish  an electronic means to

transfer   the information  between an institution  and NIH.     It

is expected that this electronic transfer mechanism will be

operational   in Fiscal Year 1995.





                                 E-5

